<html>
<title> - STABILIZING RURAL ELECTRICITY SERVICE THROUGH COMMON SENSE APPLICATION OF THE ENDANGERED SPECIES ACT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
STABILIZING RURAL ELECTRICITY SERVICE THROUGH COMMON SENSE APPLICATION 
                  OF THE ENDANGERED    SPECIES    ACT

=======================================================================

                           OVERSIGHT HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                         Wednesday, May 4, 2005

                               __________

                           Serial No. 109-12

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
21-038                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Eni F.H. Faleomavaega, American 
Elton Gallegly, California               Samoa
John J. Duncan, Jr., Tennessee       Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Barbara Cubin, Wyoming               Donna M. Christensen, Virgin 
  Vice Chair                             Islands
George P. Radanovich, California     Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Grace F. Napolitano, California
    Carolina                         Tom Udall, New Mexico
Chris Cannon, Utah                   Raul M. Grijalva, Arizona
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Jim Costa, California
Greg Walden, Oregon                  Charlie Melancon, Louisiana
Thomas G. Tancredo, Colorado         Dan Boren, Oklahoma
J.D. Hayworth, Arizona               George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Rick Renzi, Arizona                  Peter A. DeFazio, Oregon
Stevan Pearce, New Mexico            Jay Inslee, Washington
Devin Nunes, California              Mark Udall, Colorado
Henry Brown, Jr., South Carolina     Dennis Cardoza, California
Thelma Drake, Virginia               Stephanie Herseth, South Dakota
Luis G. Fortuno, Puerto Rico
Cathy McMorris, Washington
Bobby Jindal, Louisiana
Louie Gohmert, Texas
Marilyn N. Musgrave, Colorado

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

               GEORGE P. RADANOVICH, California, Chairman
        GRACE F. NAPOLITANO, California, Ranking Democrat Member

Ken Calvert, California              Raul M. Grijalva, Arizona
Barbara Cubin, Wyoming               Jim Costa, California
Greg Walden, Oregon                  George Miller, California
Thomas G. Tancredo, Colorado         Mark Udall, Colorado
J.D. Hayworth, Arizona               Dennis A. Cardoza, California
Stevan Pearce, New Mexico            Vacancy
Devin Nunes, California              Vacancy
Cathy McMorris, Washington           Nick J. Rahall II, West Virginia, 
Louie Gohmert, Texas                     ex officio
Richard W. Pombo, California, ex 
    officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Wednesday, May 4, 2005...........................     1

Statement of Members:
    Cubin, Hon. Barbara, a Representative in Congress from the 
      State of Wyoming, Prepared statement of....................    54
    McMorris, Hon. Cathy, a Representative in Congress from the 
      State of Washington........................................    10
    Napolitano, Hon. Grace F., a Representative in Congress from 
      the State of California....................................     3
    Pearce, Hon. Stevan, a Representative in Congress from the 
      State of New Mexico........................................    10
    Pombo, Hon. Richard, a Representative in Congress from the 
      State of California, Prepared statement of.................    11
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement of....................................     2
    Walden, Hon. Greg, a Representative in Congress from the 
      State of Oregon............................................     8

Statement of Witnesses:
    Boyd, Steve, Department Manager, Communications and 
      Government Relations, Turlock Irrigation District, Turlock, 
      California.................................................    21
        Prepared statement of....................................    23
    Brown, Michael, Deseret Generation and Transmission 
      Cooperative, Newcastle, Utah...............................    18
        Prepared statement of....................................    20
    Eldrige, Steve, General Manager/CEO, Umatilla Electric 
      Cooperative, Hermiston, Oregon.............................    36
        Prepared statement of....................................    38
    McLennan, Mac, Tri-State Generation and Transmissions 
      Association, Inc., Westminster, Colorado...................    32
        Prepared statement of....................................    34
    Patt, Olney, Executive Director, Columbia River Inter-Tribal 
      Fish Commission, Portland, Oregon..........................    12
        Prepared statement of....................................    14
    Smith, Chad, Director, Nebraska Field Office, American 
      Rivers, Lincoln, Nebraska..................................    25
        Prepared statement of....................................    27

Additional materials submitted for the record:
    Congressional Research Service report entitled ``Endangered 
      Species Costs for Power Marketing Agencies'' prepared by 
      Pervaze Sheikh, Analyst in Environmental and Natural 
      Resources Policy, Resources, Science, and Industry 
      Division, and Larry Parker, Specialist in Energy Policy, 
      Congressional Research Service, Library of Congress, dated 
      April 29, 2005.............................................     5
    Map submitted for the record: ``Average Revenue per kWh for 
      All Sectors'', prepared by the Energy Information 
      Administration, U.S. Department of Energy..................     7
    Short, Allen, General Manager, Modesto Irrigation District, 
      Modesto, California, Statement submitted for the record....    45


 OVERSIGHT HEARING ON ``STABILIZING RURAL ELECTRICITY SERVICE THROUGH 
        COMMON SENSE APPLICATION OF THE ENDANGERED SPECIES ACT''

                              ----------                              


                         Wednesday, May 4, 2005

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:23 p.m., in 
Room 1324, Longworth House Office Building, Hon. George 
Radanovich [Chairman of the Subcommittee] presiding.

   STATEMENT OF HON. GEORGE RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Good afternoon and welcome to the 
Subcommittee on Water and Power. I apologize for the late start 
of the hearing. Usually, we like to get started right on time, 
but we did have some votes on the Floor of the House and it 
took us a bit to get going. So we are on our way, and again, I 
want to thank everybody for being here for this hearing.
    I want to especially welcome members of the National Rural 
Electric Cooperative Association who are here with us today. I 
thank you for your dedication to the idea of protecting 
endangered species and strengthening your communities. I know 
you are very busy with your Congressional visits, so I 
appreciate the fact that you are here.
    When Congress passed the Endangered Species Act in 1973, 
everybody agreed on the need to protect and preserve our 
nation's rare species. Thirty-two years later, the belief 
hasn't changed. The only difference is that in 1973, everybody 
thought the Act would finally solve the problem, but today, 
many question whether the Endangered Species Act has even 
remotely lived up to its recovery goals.
    The Federal Government has spent billions of taxpayer 
dollars, reduced water deliveries to communities, made 
electricity more expensive, and lined the pockets of many 
lawyers, and yet the Act has a one percent rate of success at 
best.
    To make matters worse, the ESA has real impacts on real 
people. In the 1990s, for example, California levees weren't 
properly maintained because the elderberry beetle bush was 
there, the suspected habitat of the endangered elderberry bark 
beetle. When massive floods came and the levees disintegrated, 
three people died as a result.
    In the case of an endangered silvery minnow in New Mexico, 
Federal judges ruled that the Act could take water away from 
those who had paid for it. In response, Albuquerque's 
Democratic mayor claimed that, quote, ``the fringe 
environmental community, which wants to take away the city's 
destiny, wants to take water from the mouths of our children,'' 
unquote. At the time, New Mexico Governor Bill Richardson 
pledged to protect New Mexico from, quote, ``this grievous 
imbalance in the Endangered Species Act.''
    Today, we will focus on the power side of the equation. The 
ESA has tremendous impact on the electricity backbone of the 
nation, particularly out West. In siting new transmission 
lines, in relicensing hydroelectric projects, and in generating 
power, the ESA impacts almost every facet of how consumers get 
electricity.
    Almost a quarter of the Bonneville Power Administration's 
costs are related to ESA fish costs. That is not surprising, 
given that the agency, which was created by Franklin Delano 
Roosevelt, was forced to spend $3.8 million per fish in last 
summer's spill program mandated for endangered salmon. As you 
can see from the exhibit on display there, the numbers speak 
for themselves. That is a very expensive salmon, $3.85 million 
per fish.
    The percent of the Western Area Power Administration's cost 
for ESA hovers in the double digits, as well. Since these costs 
are passed directly to consumers, or customers, excuse me, it 
is safe to say that when many in the West turn on their light 
switches, the ESA meter is literally running.
    Today, we will hear from the best and the brightest rural 
utility managers who truly care about restoring species, but 
see the daily, firsthand impacts on their customers and the 
uncertainty of the future.
    We are not just here to talk about costs, though. The ESA 
was designed to achieve real results. Today's hearing is about 
improving the ESA for the mutual benefit of species and people. 
In many cases, the ESA is viewed as a zero-sum game where 
either species benefit at the expense of people or vice-versa. 
There is no reason why a new and improved ESA can't help make 
species protection and people's needs more compatible. For 
example, spending nearly $4 million per fish or tearing down 
dams when alternative, less costly means can accomplish the 
same end result or even better does not make common sense.
    Strengthening our critical habitat designation process, 
putting independent peer review science in major ESA decisions, 
or modernizing efforts like our Committee Chairman Richard 
Pombo is doing right now, are the right steps to be taken at 
the right time. We can do better for species and people, and 
that is the goal of this and future hearings.
    [The prepared statement of Mr. Radanovich follows:]

        Statement of The Honorable George Radanovich, Chairman, 
                    Subcommittee on Water and Power

    When Congress passed the Endangered Species Act in 1973, everyone 
agreed on the need to preserve our Nation's rare species. Thirty two 
years later, that belief hasn't changed. The only difference is that, 
in 1973, everyone thought the Act would finally solve the problem, but 
today many question whether the Endangered Species Act has even 
remotely lived up to its recovery goals.
    The federal government has spent billions of taxpayer dollars, 
reduced water deliveries to communities, made electricity more 
expensive and lined the pockets of many lawyers, yet the Act has a 1% 
rate of success at best. In the world I grew up in, a 1% rate does not 
meet the definition of success--most people would be fired from their 
jobs if they happened to be this ``successful.''
    To make matters worse, the ESA has real impacts on real people. In 
the 1990's, California levees were not properly maintained because of 
an endangered beetle. When massive floods came and the levees 
disintegrated, people died as a result. In the case of the endangered 
silvery minnow in New Mexico, federal judges ruled that the Act could 
take water away from those who have paid for it. In response, 
Albuquerque's Democratic Mayor exclaimed that ``the fringe 
environmental community, which wants to take away the City's destiny, 
wants to take water from the mouths of our children.'' At the time, New 
Mexico Governor Bill Richardson pledged to protect New Mexico from 
``this grievous imbalance in the ESA.''
    Today, we will focus on the power side of the equation. The ESA has 
a tremendous impact on the electricity backbone of the Nation, 
particularly out West. In siting new transmission lines, in relicensing 
hydroelectric projects, and in generating power, the ESA impacts almost 
every facet of how consumers receive electricity. Almost a quarter of 
the Bonneville Power Administration's costs are related to ESA fish 
costs. That's not surprising, given that the agency was forced to spend 
$3.8 million per fish in last summer's spill program mandated for 
endangered salmon. The percent of the Western Area Power 
Administration's ESA costs hovers in the double digits as well. Since 
these costs are passed directly to customers, it's safe to say that 
when many in the West turn their light switches on, the ESA meter is 
literally running. Today, we will hear from the best and the brightest 
rural utility managers who truly care about restoring species but see 
the daily, firsthand impacts on their customers and the uncertainty of 
the future.
    We are not here to just talk about costs, though. The ESA was 
designed to achieve real results. Today's hearing is about improving 
the ESA for the mutual benefit of species and people. In many cases, 
the ESA is viewed as a ``zero-sum'' game where either species benefit 
at the expense of people or vice-versa. There's no reason why a new and 
improved ESA can't help make species protection and the people's needs 
more compatible. For example, spending $3.8 million per fish or tearing 
down dams when alternative, less costly means can accomplish the same 
end result or even better does not make sense.
    Strengthening our critical habitat designation process as 
championed by our Subcommittee colleague, Dennis Cardoza; putting 
independent peer review science in major ESA decisions like our other 
Subcommittee colleague Greg Walden wants to do; or quarterbacking the 
ESA modernization effort like our full Committee Chairman Richard Pombo 
is doing are the right steps at the right time. We can do better for 
species and people, and that's the goal of this and future hearings.
                                 ______
                                 
    Mr. Radanovich. I welcome our witnesses today and would 
like to especially welcome a good friend of mine from the 
district, Steve Boyd from the Turlock Irrigation District. 
Steve, welcome to the hearing. I am glad you are here to 
testify.
    I now recognize the distinguished Ranking Minority Member, 
Grace Napolitano, for any statement she may have. Grace?

  STATEMENT OF HON. GRACE F. NAPOLITANO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Napolitano. Thank you, Mr. Chair. Thank you for 
holding these very important hearings today and I do look 
forward to better understanding how hydroelectric power has 
affected economic and natural resource values around the 
country and how we can all work together to address the various 
needs and concerns that I am sure are going to be voiced by our 
panelists.
    As we work toward reaching a consensus on recovery efforts 
and the management of our natural resources, it is of ultimate 
importance to acknowledge that the fish population existed long 
before the multi-purpose dams that we constructed throughout 
the West.
    We should also keep in mind that under the treaties 
negotiated with the United States in 1855, Indian tribes have 
fishing rights. Later today, you will hear a Federal obligation 
to restore salmon to healthy numbers discussed in greater 
detail, I am sure, from Olney Patt, Executive Director of the 
Columbia River Inter-Tribal Fish Commission. While we have all 
directly and indirectly benefited from inexpensive 
hydroelectric power, it has not come without costs.
    According to an April 10, 2003, Congressional Research 
Service report, wild salmon in the Columbia River Basin in the 
1800s were estimated to number as much as 60 million returning 
adults each year. Today, less than one-tenth of that number of 
wild salmon are seen returning up and down the coast of the 
Pacific Northwest. Human activities, including hydropower 
generation and other activities that result in habitat loss, 
are believed to be responsible for much of the decline.
    In addition to fish and wildlife and electricity, the 
Federal power systems are also operated for the benefit of 
flood control, irrigation, navigation, and recreational 
benefits. These other uses can change the timing and amount of 
water available for power generation and also reduce the amount 
of power that the Federal power system produces.
    Last July, GAO, the Government Accountability Office, found 
that diverting water for irrigation purposes results in about 
$180 million per year in foregone revenues for Bonneville Power 
Administration. I expect we will hear today about how the ESA, 
enacted in 1973, is responsible for the high utility rates 
throughout the West. In preparation for this hearing, my staff 
asked the Congressional Research Service to look into this 
question and they found that the ESA cost in post-Power 
Marketing Administrations' operating expenses ranged from zero 
to 17 percent. CRS was careful to point out--and we have a copy 
of that report and we will make sure that the panel has it, and 
if anybody else wants a copy of it--that agencies--they are 
careful to point out that the agencies do not separate cost for 
ESA listed species from other expenses such as compliance and 
with the Grand Canyon Protection Act or activities for non-ESA 
listed fish, so it is impossible to attribute an exact price.
    Even though Bonneville Power Administration has the highest 
percentage of ESA cost of all Power Marketing Administrations, 
the utility rates in Bonneville's service territory are among 
the lowest in the country. In 2003, the average price 
nationwide per kilowatt hour was 7.4 cents. Yet the average 
prices were 5.7 in Washington State, 6.2 per kilowatt hour in 
Oregon, and 5.2 in Idaho.
    Mr. Chairman, I ask unanimous consent to insert into this 
hearing for the record the Congressional Research Service 
memorandum, a breakdown of utility rates nationwide, the GAO 
report I mentioned, and the Columbia River Inter-Tribal Fish 
Commission's Energy Report for the Columbia River, and a July 
1998 letter from the Department of Commerce to Columbia River 
Inter-Tribal Fish Commission discussing the treaty rights of 
the Indian tribes.
    We all use energy and we all must realize the importance of 
hydroelectric power, but we must also remember that Power 
Marketing Administrations and utilities do not own the rivers. 
They belong to all of us.
    I appreciate the witnesses being here today and traveling 
from throughout the country to participate in this hearing and 
I look forward to their testimony.
    Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Grace. I ask unanimous consent 
that the items you had just discussed are in the record. There 
being no objection, so ordered.
    Mrs. Napolitano. Thank you.
    Mr. Radanovich. You are welcome.
    [The CRS report submitted by Mrs. Napolitano follows:]


                     Congressional Research Service

Memorandum                                                     April 
29, 2005
_______________________________________________________________________

TO:           House Committee on Resources

FROM:         Pervaze Sheikh, Analyst in Environmental and Natural 
Resources Policy, Resources, Science, and Industry Division<plus-minus>

                 Larry Parker, Specialist in Energy Policy, Resources, 
Science, and Industry Division<plus-minus>

SUBJECT:     Endangered Species Costs for Power Marketing Agencies
_______________________________________________________________________

    This memorandum responds to your request for a table and 
explanation of costs agencies have attributed to requirements of the 
Endangered Species Act (ESA; P.L. 93-205; 16 U.S.C. Sec. Sec. 1531 et 
seq.) for Power Marketing Administrations (PMA), including the 
Bonneville Power Administration (BPA), Western Area Power 
Administration (WAPA), Southeastern Power Administration (SEPA), and 
Southwestern Power Administration (SWPA). The information used to 
create this table was derived from information provided by each of the 
PMAs (see attached) and from the FY2006 Department of Energy 
Congressional Budget Request for Power Marketing Administrations. This 
memo summarizes the ESA costs for each of the PMAs and then provides a 
table comparing costs among PMAs, and analyzing the costs in terms of 
operating expenses, revenues, and power marketed. <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ For more information see, CRS Report RL32798, Power Marketing 
Administrations: Proposals for Market-Based Rates, by Kyna Powers.
---------------------------------------------------------------------------
    If you have any further questions, please contact Pervaze Sheikh at 
7-6070, Larry Parker at 7-7238, or Kyna Powers at 7-6881.
    SEPA ESA Costs. <SUP>2</SUP> SEPA attributes no costs to 
requirements under the ESA for FY2005. According to SEPA, no specific 
habitat requirements have been indicated for species listed under ESA, 
and therefore, no costs to maintain any listed species have been 
incurred. SEPA does contend that costs have been incurred for non-
endangered species, including costs for maintaining fish spawning 
habitat and flow regimes for aquatic species, among others.
---------------------------------------------------------------------------
    \2\ Statement provided by Southeastern Power Administration (April 
22, 2005) attached.
---------------------------------------------------------------------------
    SWPA ESA Costs. <SUP>3</SUP> SWPA attributes $2.2 million in costs 
to requirements under the ESA for FY2005. According to SWPA, costs of 
$385,000 are attributed to additional energy purchases resulting from 
operations for endangered species (e.g., flow modifications). 
Approximately $1.8 million, 82% of the total costs, are attributed to 
the reduced value of off-peak energy generation due to ESA requirements 
(i.e., revenue was lost because energy was produced and sold at off-
peak rates instead of at peak rates).
---------------------------------------------------------------------------
    \3\ Statement provided by Southwestern Power Administration (April 
27, 2005) attached.
---------------------------------------------------------------------------
    WAPA ESA Costs. <SUP>4</SUP> WAPA attributes approximately $106.6 
million in costs to requirements under the ESA for FY2005. <SUP>5</SUP> 
However, WAPA notes that it does not track costs by ``specific legal 
and regulatory mandates, but rather more generally, as applicable to 
environmental objectives.'' Further, WAPA contends that their numbers 
are conservative, and that ``it is difficult to estimate the lost 
generation and other costs specifically associated with ESA 
compliance.'' <SUP>6</SUP>
---------------------------------------------------------------------------
    \4\ Statement provided by Western Area Power Administration (April 
29, 2005) attached.
    \5\ Note that the $106.6 million estimate of ESA costs contrasts 
with the $39.7 million estimate provided by WAPA in response to 
questions requested by Congressman Calvert at a House Resources 
Subcommittee on Water and Power Hearing on Feb. 25, 2004 (attached). We 
have included both estimates in calculations presented in Table 1.
    \6\ Statement provided by Western Area Power Administration (April 
29, 2005) attached.
---------------------------------------------------------------------------
    BPA ESA Costs. BPA attributed approximately $494 million in costs 
to requirements under the ESA for FY2005. <SUP>7</SUP> The BPA includes 
direct program costs for fish and wildlife projects for ESA-listed 
species, reimbursable costs to the U.S. Army Corps of Engineers and 
Bureau of Reclamation for operation and maintenance costs for ESA-
listed species, capital repayment to the U.S. Treasury for constructing 
hatcheries and fish passage projects, power purchases to supply 
customer demand when fish operations prevent electricity generation, 
and opportunity costs when water is spilled over the dam (i.e., not 
used for power generation) for ESA-listed species. <SUP>8</SUP> BPA 
states that operational costs (e.g., foregone revenue and power 
purchases) for ESA listed species (totals $339 million) include some 
``relatively small costs for non-ESA-listed fish operations that are 
difficult to separate out.'' <SUP>9</SUP> This uncertainty in 
separating costs for ESA-listed species was also expressed by WAPA.
---------------------------------------------------------------------------
    \7\ The estimated ESA costs include $462 million in costs that 
directly benefit ESA-listed species, $5 million that indirectly benefit 
ESA-listed species, and $27 million that represent funding of Corps 
operations and maintenance costs related to ESA-listed species. For 
further information see, Bonneville Power Administration, How 
Bonneville Power Administration Funds Fish and Wildlife Efforts, 
available at [www.bpa.gov], accessed April 29, 2005.
    \8\ Ibid.
    \9\ Ibid.
---------------------------------------------------------------------------
    Analysis of ESA Costs. Based on the agency estimates discussed 
above, CRS has calculated several perspectives on ESA costs to PMAs, 
including the ESA costs as a percentage of operating expenses, gross 
revenue, and power marketed (Table 1). ESA costs as a percentage of PMA 
operating expenses ranged from 0 to 17%, similar to ESA costs as a 
percentage of revenue, which ranged from 0% to 15%. BPA had the highest 
percentage of ESA costs to revenue generated and operating expenses. 
CRS used these data to determine ESA costs per kilowatt-hour of power 
marketed to provide perspective on the contribution of ESA costs to the 
cost of power marketed. Values ranged from 0 cents to 0.59 cents per 
kilowatt-hour of power marketed. Once again, BPA was the highest with 
the costs representing about 20% of BPA's current priority firm rate. 
<SUP>10</SUP>
---------------------------------------------------------------------------
    \10\ Rate data from Bonneville Power Administration, BPA Fast 
Facts, available at [http://www.bpa.gov/corporate/About--BPA/], 
accessed April 29, 2005.

[GRAPHIC] [TIFF OMITTED] T1038.006


    [The map submitted for the record by Mrs. Napolitano, 
``Average Revenue per kWh for All Sectors,'' prepared by the 
Energy Information Administration, U.S. Department of Energy, 
follows:]

[GRAPHIC] [TIFF OMITTED] T1038.007

    [NOTE: The U.S. General Accounting Office (GAO) report entitled 
``Bonneville Power Administration: Better Management of BPA's 
Obligation to Provide Power Is Needed to Control Future Costs,'' dated 
July 2004, submitted for the record has been retained in the 
Committee's official files.]

    [The July 1998 letter from the Department of Commerce to the 
Columbia River Inter-Tribal Fish Commission, submitted for the record 
by Mrs. Napolitano follows:]

                  UNITED STATES DEPARTMENT OF COMMERCE

           The Assistant Secretary for Oceans and Atmosphere

                         Washington. D.C. 20230

                             July 21, 1998

Mr. Ted Strong
Executive Director
Columbia River Inter-Tribal Fish Commission
729 N. E. Oregon, Suite 200
Portland, OR 97232

Dear Ted:

    I am writing in response to your September 29, 1997 letter to Will 
Stelle describing your view of the federal trust responsibility to the 
four Columbia River Treaty Tribes and the relationship between this 
federal responsibility and the Endangered Species Act (ESA). My 
response to you has been coordinated with all the federal agencies 
involved in the salmon recovery effort and concurred in by the 
President's Council on Environmental Quality.
    It is our policy that the recovery of salmonid populations must 
achieve two goals; 1) the recovery and delisting of salmonids listed 
under the provisions of the ESA; 2) the restoration of salmonid 
populations, over time, to a level to provide a sustainable harvest 
sufficient to allow for the meaningful exercise of tribal fishing 
rights. We see no conflict between the statutory goals of the ESA and 
the federal trust responsibility to Indian tribes. Rather the two 
federal responsibilities complement one another. Unfortunately, in 
light of the long-term decline of salmonid populations, we cannot 
achieve either goal within a short time frame. It is important that we 
achieve a steady upward trend toward ESA delisting in the near term, 
while making river and land management improvements for the long-term.
    Our statement of the twin goals for salmonid populations listed 
under the ESA recognizes that the United States, and all federal 
agencies, stand in a trust relationship with all federally recognized 
Indian tribes and of the responsibilities that flow from that 
relationship. The federal trust obligation to Indian tribes is 
independent of the statutory duties of the federal agencies and informs 
the way such statutory duties are to be implemented. The United States 
Supreme Court has described certain characteristics of the trust 
relationship and the lower courts have implemented the trust in 
specific situations. <SUP>1</SUP> Hence, we understand the importance 
of the federal government's efforts to allocate the conservation burden 
for salmonids listed under the ESA in such a way that, among other 
things, it does not discriminate against tribal fishing rights and is 
implemented in the least restrictive manner. Accordingly, the tribes 
may reasonably expect, as a matter of policy, that tribal fishing 
rights will be given priority over the interests of other entities, 
federal and non-federal, that do not stand in a trust relationship with 
the United States.
---------------------------------------------------------------------------
    \1\ See, e.g., Seminole Nation v. U.S., 316 U.S. 286 (1942); U.S. 
v. Mitchell, 463 U.S. 206 (1983); Parravano v. Babbitt, 70 F.3d 539 
(9th Cir. 1995), cert. denied, Parravano v. Babbitt, 518 U.S. 1016 
(1996); Pyramid Lake Paiute Tribe v. U.S. Dept of the Navy, 898 F.2d 
1410 (1990); Kittitas Reclamation District v. Sunnyside Valley 
Irrigation District, 763 F.2d 1032 (9h Cir. 1985); Joint Board of 
Control v. United States, 862 F.2d 195 (9`h Cir. 1988); Confederated 
Tribes of the Umatilla Indian Reservation v. Alexander, 440 F. Supp.553 
(D. Or. 1977); Pyramid Lake Paiute Tribe v. Morton, 354 F. Supp. 252 
(D.D.C. 1973).
---------------------------------------------------------------------------
    The Secretaries of Commerce and Interior recognized the importance 
of harmonizing their trust responsibilities with their statutory 
obligations under the ESA in the Secretarial Order of June 5, 1997. The 
federal agencies will continue to consult with all affected tribes on a 
government to government basis as provided for in the President's 
Memorandum on Government to Government Relations with Native Americans, 
April 29, 1994, and Executive Order 13084 on Consultation and 
Coordination with Indian Tribal Governments, May 14, 1998.
    The federal agencies will continue to join with the states and 
tribes to develop a comprehensive approach to the restoration of fish 
and wildlife resources in a manner that fulfills all obligations under 
federal law, including the trust obligations to Indian tribes. Toward 
that end, the federal government continues to support the ``Three 
Sovereigns'' process to develop a regional plan for the conservation of 
listed species and restoration of healthy, sustainable and harvestable 
populations of salmon.
    We look forward to continuing to work with the people of the 
region, including the Columbia River Treaty Tribes, to accomplish 
salmon recovery.

                               Sincerely,

                            Terry D. Garcia

                                 ______
                                 
    Mr. Radanovich. Any other opening statements? Mr. Walden?

  STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    Mr. Walden. Thank you very much, Mr. Chairman. I want to 
thank my colleagues, both of you, from California for this 
hearing and certainly for the CRS report. I was just noting, as 
I was afraid I was going to see, that Bonneville is the 17 
percent one in our region, some $494 million of costs 
associated that they can pull out, although obviously that is 
difficult to do, directly related to ESA costs. That comports 
with some of the data I have seen.
    Northwest ratepayers are currently paying about $600 
million per year above the electricity costs for both species 
and habitat work. So it is not all related just to ESA, because 
this number is a little higher, but clearly--and there is a 
responsibility to do that, obviously, but I guess the point is 
the ratepayers are paying a fairly large burden here.
    In fact, some estimate that fish restoration costs account 
for almost 25 percent of the wholesale cost of electricity in 
the region. And remember, as a result of Enron and all and 
other embedded costs, we are seeing rate increases of 46 
percent between 2001 and 2004. I know that also affects your 
ratepayers in California as we trade power in our down time and 
back and forth.
    These are very expensive. We need to make sure we get it 
right, for the species, certainly, because as a society, we 
have an obligation to not only protect them from going extinct, 
but also to enhance their runs. The question is, we need to 
make those decisions based on sound science and to make sure 
that we are making the right decisions throughout the process 
because not everything is the responsibility of the river.
    You know, I would share with the Committee, and I don't 
know if other members have this, but there is a lot of 
discussion right now about what the sea lions are doing. This 
was a picture that ran recently. They are now finding sea lions 
not only at Bonneville Dam, but I heard recently as far east as 
John Day Dam. These folks are smart. They have decided the best 
place to eat is right in the fish ladders themselves, and so 
they have photos of them actually where they count in the fish 
ladders as the fish go by. Of course, I was talking to a friend 
of mine the other day prior to the closure of the season who 
had been out fishing and he said two of his friends had fish 
on, and by the time they got them in, they had heads. That was 
all that was left, because the sea lions had eaten the rest.
    So we have got some predator issues up and down the river 
that we didn't have before. We also have a law that precludes 
dealing with the predators that I think obviously we need to 
take a look at.
    Mr. Chairman, not to consume all the time here, but I did 
want to welcome two members of the panel today, two very 
distinguished members who are from Oregon and from my district. 
First of all is Steve Eldrige. Mr. Eldrige is both a 
constituent of mine and General Manager and CEO of Umatilla 
Electric Co-op since December of 1990. He has more than 30 
years in the utility business, having started at age ten, 
obviously.
    [Laughter.]
    Mr. Walden. Steve is currently Chairman of the Governor's 
Oregon Rural Policy Advisory Committee, Eastern Oregon Telecom, 
LLC, and the Oregon Rural Electric Co-op Association Government 
Affairs Committee. He serves on the boards of Pacific Northwest 
Generating Cooperative, Pacific Northwest Utilities Conference 
Committee, the Good Shepherd Hospital Board of Trustees, the 
Northwest Open Access, Network, Oregon Cooperative and Ruralite 
Services. He also represents UEC on the Bonneville Power 
Administration Power Function Review Committee, the Oregon 
Managers Group, the Oregon Development Group, and the Tri-Herm 
Group. And when he has free time, he comes and testifies before 
Members of Congress, so we welcome you, Steve.
    I am also delighted to welcome Mr. Olney Patt, Junior. He 
is former Warm Springs Tribal Chairman and has certainly been 
both an eloquent and forceful voice for tribal issues and fish 
issues in the Columbia River system. He is currently the 
Executive Director of the Columbia River Inter-Tribal Fish 
Commission.
    So we welcome both of you gentlemen along with the rest of 
the panel.
    Thank you very much, Mr. Chairman.
    Mr. Radanovich. Thank you, Mr. Walden.
    Mr. Pearce, you had an opening statement?

 STATEMENT OF HON. STEVAN PEARCE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW MEXICO

    Mr. Pearce. Thank you, Mr. Chairman. I appreciate your 
opening comments that dealt with some of the things that we 
faced in New Mexico.
    As I sit here and think about the ESA, I remember one of 
the hearings we had at the last of the 108th Congress, just 
three or four months ago. A lady from California said, you 
know, California is the greenest of the green States. She said, 
my city is the greenest of the green cities. And, she said, as 
a city counselor, I am the greenest of the green of the green. 
And, she said, the doggone ESA is broken and needs to be fixed, 
and she said it is stopping people from even building on 
additions to their houses. I think that really summarized for 
all the frustration that the Nation is beginning to experience 
from the elements that we have seen.
    In addition to the things that you mentioned, Mr. Chairman, 
we had one circumstance during the last two years in New Mexico 
where the cooperative wanted to take down a tree that had died 
and was close to the power lines. They were not permitted to 
because of Endangered Species Act requirements. That tree 
eventually fell on the power line. It shorted out and caused a 
fire of several tens of thousands of acres.
    It just continues over and over again that we find the 
damaging effects of the way the Act is implemented. Not one of 
us would watch as any species goes extinct, but we have to have 
some common sense. We have to reach some balance in the way 
that the law works. And we have to understand the way it is 
being misused.
    Mr. Chairman, I appreciate the Committee hearing on this 
important subject today. Thank you.
    Mr. Radanovich. Thank you, Mr. Pearce.
    Miss McMorris, you had an opening statement?

STATEMENT OF HON. CATHY McMORRIS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Miss McMorris. Thank you, Mr. Chairman. I appreciate the 
chance to make a statement this morning and appreciate the 
chance that we are addressing this issue.
    The Endangered Species Act has played a major role in the 
hydro relicensing process of a project in my district. The 
Ponderey PUD's attempt to relicense the Box Canyon Dam is, in 
my opinion, an example of the process gone wrong. The Box 
Canyon project is located on the Ponderey River in Northeast 
Washington, is owned and operated by the PUD. The project 
generates up to 60 megawatts of power. It was first licensed in 
1952. The PUD applied to FERC to relicense the project in 2000 
and the process is still underway.
    While the environmental impacts associated with this small 
project are modest, the application of the hydropower generated 
in one of the poorest counties in Washington State is great. 
The largest employer in Ponderey County relies on the power 
generated by Box Canyon, but because of environmental 
requirements presently under consideration by the Federal 
Government, this project could be deemed uneconomic. The people 
of the county face not only the prospect of increased rates, 
but job losses.
    Clearly, the issues my constituents are facing in Ponderey 
County are directly related to our discussion today. The 
endangered species of significance to Box Canyon is bull trout, 
which have been listed as threatened. Despite years of 
scientific research and third-party review that suggests major 
investments in fish ladders and habitat restoration in the 
Ponderey River will do little or nothing for bull trout, the 
Federal Government has recommended that this small project 
invest more than $70 million over the course of its new license 
for these very endeavors. To put this into perspective, taken 
together with other agency recommendations, the cost to operate 
the project will more than double.
    In the case of Box Canyon, even history can help deduce 
whether the application of the endangered species is going 
above and beyond its intended purpose. History tells us that 
bull trout have never existed in most streams within this 
project's boundary. But still, the Federal Government insists 
that this small community served by Ponderey PUD find a way to 
fund efforts to achieve an entirely unrealistic agency goal of 
1,000 bull trout per mile of stream. Even though science has 
told us that the streams in question never have sustained these 
populations of fish, this has not stopped the Fish and Wildlife 
Service from insisting on requiring this small utility to spend 
more than $70 million on bull trout measures.
    The utility has not argued, nor would I, that the 
responsibility does not exist to care for the impacted 
resource. However, when unjustifiable science is used as a 
pretext to impose huge costs for questionable benefits, 
particularly when such costs are squarely on the backs of the 
ratepayers in rural America, then we must ask these tough 
questions related to the Act's implementation.
    Thank you very much, Mr. Chairman.
    Mr. Radanovich. Thank you, Miss McMorris.
    The Chair welcomes Chairman Pombo to the hearing. Richard, 
did you want to make any comments?

    STATEMENT OF HON. RICHARD W. POMBO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    The Chairman. I will put it in the record.
    Mr. Radanovich. OK, thank you.
    [The prepared statement of Chairman Pombo follows:]

        Statement of The Honorable Richard W. Pombo, Chairman, 
                         Committee on Resources

    I thank Chairman Radanovich for holding this hearing. This is an 
excellent continuation of our successful hearing in Jackson, 
Mississippi, this past weekend.
    This year, the Resources Committee has focused on providing 
reliable and affordable energy supplies AND updating and modernizing 
the Endangered Species Act. This hearing accomplishes both of these 
objectives.
    One-quarter of the electricity costs in the Pacific Northwest are 
ESA costs. One-sixth of the electricity costs in WAPA's service 
territory are ESA costs. These costs are directly passed on to 
consumers.
    There is considerable uncertainty in terms of future costs, 
particularly in the Northwest. When I read that 3.8 million dollars was 
spent per endangered fish during last year's Bonneville summer spill, 
it begs the question of why we can't do better.
    The ESA was borne of the best intentions, but it's not working:
    <bullet>  1% ``success'' rate
    <bullet>  litigation nightmare due court mandates and vague 
definitions
    <bullet>  lack of independent, peer-reviewed science
    <bullet>  inconsistent implementation
    <bullet>  economic meltdowns and social dislocations like Klamath
    We can do better and that's the reason for this hearing.
    I thank the witness for their testimony based on their firsthand 
impacts and how they want to conserve species in their backyards.
                                 ______
                                 
    Mr. Radanovich. I would now like to welcome our panel and 
invite each one of you to give your testimony. Mr. Steve 
Eldrige is the General Manager of the Umatilla Electric 
Cooperative; Mr. Mac McLennan, Tri-State Generation and 
Transmission Association and the National Endangered Species 
Act Reform Coalition from Westminster, Colorado; Mr. Chad 
Smith, Director of the Nebraska Field Office of American Rivers 
in Lincoln, Nebraska; Mr. Steve Boyd, Department Manager of 
Communications and Government Relations, Turlock Irrigation 
District in Turlock, California; Mr. Michael Brown, Dixie 
Escalante Generation and Transmission Cooperative, Newcastle, 
Utah; and Mr. Olney Patt, Executive Director of the Columbia 
River Inter-Tribal Fish Commission in Portland, Oregon.
    Gentlemen, welcome to the Subcommittee. You may know that, 
of course, your written testimony is being submitted, so you 
are more than welcome in the five minutes that you are given to 
be extemporaneous, summarize. We are going to try to hold fast 
to the five-minute rule. There is a clock here in front of you. 
It has got red and yellow and green lights. It works just like 
a traffic system. Green means go, yellow means speed up, and 
red means stop, so if you will just follow those rules. We are 
going to try to stick to the five-minute rule, if we can.
    Is that you, Mr. Patt? I am sorry, I can't see your name 
tag. We will go through each one of you first and then open up 
the panel for questions by members on the dais up here 
afterwards. So, Mr. Patt, if you would like to begin, welcome 
to the Subcommittee and tell us what you want to say.

  STATEMENT OF OLNEY PATT, JR., EXECUTIVE DIRECTOR, COLUMBIA 
      RIVER INTER-TRIBAL FISH COMMISSION, PORTLAND, OREGON

    Mr. Patt. Good afternoon, Mr. Chairman, members of the 
Subcommittee. My name is Olney Patt, Junior, and I am the 
Executive Director of the Columbia River Inter-Tribal Fish 
Commission.
    The Commission was formed by resolution of the Nez Perce 
Tribe, the Confederated Tribes of the Umatilla Indian 
Reservation, the Confederated Tribes of the Warm Springs 
Reservation of Oregon, and the Confederated Tribes and Bands of 
the Yakima Nation for the purpose of coordinating fisher 
management policy and providing technical expertise essential 
for the protection of the tribes' treaty protected fish 
resources.
    The Commission's primary mission is to provide coordination 
and technical assistance to the member tribes to ensure that 
outstanding treaty fishing rights issues are resolved in a way 
that guarantees the continuation and restoration of our tribal 
fisheries into perpetuity. I want to thank you for providing me 
with the opportunity to testify here before you today.
    I think it is important for you and the members of the 
Subcommittee to hear how the tribes feel about the interplay 
between the Federal obligation to restore salmon to healthy, 
sustainable runs under the treaties between the tribes and the 
United States as well as under the Endangered Species Act and 
the desirable goal of maintaining access to cheap electricity 
generated by hydropower.
    In the Pacific Northwest, we live among a diversity of 
communities, industries, and cultures. Each one has a stake in 
the fate of the salmon and shoulders the responsibility for 
salmon survival. The Endangered Species Act often becomes the 
focal point of frustration, but we cannot overlook other 
contributing factors that impact salmon survival while also 
limiting the river's capacity to generate hydropower. If we try 
to analyze how the implementation of the ESA affects the cost 
of rural electricity, we will ignore other uses and users that 
also affect the cost of rural electricity.
    For example, in the current draft of the Northwest Power 
and Conservation Council's Fourth Annual Report to the 
Governors on the Fish and Wildlife Program, they state that 
irrigation is the largest non-power user. Irrigation accounts 
for net water withdrawals from the Columbia and Snake River 
system of about 14.4 million acre feet of water annually. 
According to the Council's analysis, this volume of water, were 
it left in the river and used to generate hydropower instead of 
being withdrawn for irrigation, would yield about 625 average 
megawatts of electricity, that is, averaged across all 12 
months, with a value of about $145 million per year.
    Therefore, our rural, agriculturally based communities that 
divert water to nurture and sustain their livelihood also tap 
into the water supply that could otherwise be funneled through 
the hydropower system. Should we ignore this cost to the 
system? That doesn't seem fair when, at the same time, water 
that is needed to ensure the safe passage of salmon to the 
ocean is being charged as a cost against the ESA. The ESA did 
not create the salmon's need for water. It is there to remind 
us all of the salmon's need for adequate water quantity and 
quality.
    My point is that we are all in this together. While we 
enjoy the benefits, we must also recognize the consequences and 
find equitable solutions.
    Historically, the tribes relied on salmon to fuel a 
subsistence economy. It didn't take long for the influx of 
Western pioneers to take a cue from us, recognizing the 
economic treasures found by exploiting the abundant Columbia 
Basin salmon runs. Salmon, along with timber and agriculture, 
helped the settlers secure an economic foothold in the region. 
Today, out of these three, salmon is often overlooked in 
debates on the need to safeguard a natural resource economy. 
Yet salmon still remains a critical element of a healthy, well-
diversified natural resource-based rural economy from small 
towns in Southeast Alaska to those in the Snake River 
headwaters of Idaho.
    Unfortunately, deep lines have been drawn in the debate of 
economy versus salmon and the ESA, feeding the mistaken 
impression that a choice must be made between the two. The 
misplaced spirit that pits salmon restoration against a healthy 
economy must be dispelled and replaced with the reality of the 
important value that salmon continues to play in our regional 
economies.
    It is not solely the tribes who benefit from a salmon 
economy. The fisheries programs operated by our member tribes 
help the non-Indian community satisfy their catch and fuel 
their own economies. Some communities in the basin can breathe 
a sigh of relief over this reemerging economy, which 
diversifies their economic base and pulls in outside dollars.
    Along the Salmon River, the mayor of Riggins, Idaho, stated 
in a February article in the Idaho Statesman that businesses in 
his town collected more than $10 million in just six weeks 
during last year's Chinook harvest.
    In that same article, the paper also reported on an 
economic study that estimated that if Idaho could return to the 
fishing levels and ranges of the 1960s, the State would 
experience an additional $544 million in annual economic 
activity. Most of this, $330 million, would be felt in the 
rural communities. What I feel this study suggests is that the 
decisionmakers, be they politicians or business people or 
government agencies operating under the mandate of trust 
obligations and law, must not underestimate the economic 
importance of salmon. Rather than making salmon and economy 
divisive, linking them is a wise investment.
    What we need for salmon and what rural economies need in 
terms of energy costs is certainty. To achieve that certainty, 
we need to honestly assess the actual costs of hydropower 
energy development long deferred by energy users but borne by 
the salmon and the communities and cultures dependent upon 
healthy, sustainable salmon runs.
    The Columbia Basin Fish and Wildlife Authority, a 
consortium of 13 tribes, four States, and the Federal Fish and 
Wildlife agencies, has developed a cost estimate for 
implementation of sub-basin plans developed under the auspices 
of the Northwest Power and Conservation Council. We believe 
that the Bonneville Power Administration should build these 
costs into their next rate case. Under the current rate case, 
costs were assumed to be an average of $186 million. For the 
next rate case covering the years 2007 through 2009, the costs 
should ramp up to an average of $240 million per year. The 
effect----
    Mr. Radanovich. Mr. Patt, I am sorry, but the light is red. 
If you could kind of sum up rather than finishing your whole 
testimony, it would be appreciated.
    Mr. Patt. OK. We are also submitting written testimony----
    Mr. Radanovich. Yes, certainly.
    Mr. Patt.--and we would certainly answer any questions, 
either at the conclusion of this or in written form.
    Mr. Radanovich. There will be plenty of questions and your 
testimony will be fully submitted.
    Mr. Patt. Thank you very much.
    Mr. Radanovich. Thank you.
    [The prepared statement of Mr. Patt follows:]

           Statement of Olney Patt, Jr., Executive Director, 
              Columbia River Inter-Tribal Fish Commission

    Good morning Mr. Chairman, members of the subcommittee. My name is 
Olney Patt, Jr.; I am the Executive Director of the Columbia River 
Inter-Tribal Fish Commission. I want to thank you for providing me with 
the opportunity to testify before you today. I think it is important 
for you and the members of the subcommittee to hear how the tribes feel 
about the interplay between the federal obligation to restore salmon to 
healthy sustainable runs under treaties between the tribes and the 
United States, as well as under the Endangered Species Act and the 
Northwest Power Act, and the desirable goal of maintaining access to 
cheap electricity generated by hydropower.
    The Columbia River Inter-Tribal Fish Commission was formed by 
resolution of the Nez Perce Tribe, the Confederated Tribes of the 
Umatilla Indian Reservation, the Confederated Tribes of the Warm 
Springs Reservation of Oregon and the Confederated Tribes and Bands of 
the Yakama Nation for the purpose of coordinating fishery management 
policy and providing technical expertise essential for the protection 
of the tribes' treaty-protected fish resources. Since 1979, the CRITFC 
has contracted with the BIA under the Indian Self-Determination Act 
(P.L. 93-638) to provide this technical support. Since 1985, the 
Commission, together with the Northwest Indian Fisheries Commission, 
has also contracted with the BIA under the Indian Self-Determination 
Act (P.L. 93-638) to implement the tribal co-management 
responsibilities and obligations under the U.S.-Canada Pacific Salmon 
Treaty of 1985. The Commission's primary mission is to provide 
coordination and technical assistance to the member tribes to ensure 
that outstanding treaty fishing rights issues are resolved in a way 
that guarantees the continuation and restoration of our tribal 
fisheries into perpetuity.
    I also serve as one of two tribal representatives on the U.S. 
Section of the Pacific Salmon Commission. The Pacific Salmon Commission 
is responsible for implementing the U.S.-Canada Pacific Salmon Treaty, 
which is designed to ensure the conservation of salmon stocks while 
fairly allocating harvests between the two countries. I previously 
served as the elected Chairman of the Confederated Tribes of the Warm 
Springs Reservation of Oregon.
    My testimony today is provided on behalf of the four treaty fishing 
tribes from the Columbia River basin.
    Treaties of 1855. Under treaties negotiated with the United States 
in 1855, <SUP>1</SUP> the tribes reserved to themselves several rights, 
each as a sovereign; among these reserved rights is the right to take 
fish at all usual and accustomed fishing places. On the Columbia River 
and its many tributaries, our peoples have exercised this right since 
time immemorial. Our peoples fished during times of drought and during 
times of floods, during times of great runs of salmon and during times 
of low runs of salmon. As they do now, our chiefs and elders watched 
over the harvest to ensure that the people cherished and protected the 
gift of salmon from the Creator. It was the expectation of our treaty 
negotiators then that the tribes would always have access to abundant 
runs of salmon; it is our expectation now that the United States will 
honor that commitment and take the steps necessary to protect our trust 
resource. This reserved right has not been diminished by time and its 
full exercise has been upheld and affirmed in several U.S. Supreme 
Court decisions.
---------------------------------------------------------------------------
    \1\ Treaty with the Yakama Tribe, June 9, 1855, 12 Stat. 951; 
Treaty with the Tribes of Middle Oregon, June 25, 1855, 12 Stat. 963; 
Treaty with the Umatilla Tribe, June 9, 1855, 12 Stat. 945; Treaty with 
the Nez Perce Tribe, June 11, 1855, 12 Stat. 957.
---------------------------------------------------------------------------
    Spirit of the Salmon. I want to take this opportunity to note that 
the tribes, working through the Commission, have developed a framework 
restoration plan, Wy-Kan-Ush-Mi Wa-Kish-Wit or Spirit of the Salmon. 
This plan documents the threats to our fisheries, identifies hypotheses 
based upon adaptive management principles for addressing these threats, 
and provides specific recommendations and practices that must be 
adopted by natural resource managers to guarantee their trust 
responsibilities and meet their treaty obligations. In this plan, the 
tribes have identified the need to insure that the burden of conserving 
these salmon stocks is allocated fairly across those land and water 
uses responsible for their decline. Consistent with this need, we have 
identified changes that hatchery programs, forestry, hydroelectric 
development, irrigation, mining and other development activities must 
make in their operations to ensure the recovery of salmon stocks and 
fisheries. The tribes' ultimate goal is to restore a sustainable 
resource for the benefit of all peoples in the Pacific Northwest. 
Consistent with meeting this goal, each and every beneficiary of the 
river must make sacrifices in times of shortage, much as the tribes 
have voluntarily sacrificed fully exercising their right to fish over 
the last several decades. The tribes now call upon those who would 
generate electricity and those who would withdraw water from the rivers 
to now make that sacrifice, or to provide equivalent mitigation when it 
is demonstrated that such sacrifice is impossible.
    Hydropower development. Our ability to fully exercise our reserved 
right to take fish at all usual and accustomed fishing places has been 
compromised by a combination of state and federal decisions and 
management actions that were focused not on the salmon, but rather on 
other developments and uses of the Columbia River. Predominant among 
these developments is what we know as the Federal Columbia River Power 
Supply System, a series of eight hydroelectric power generating dams 
built by the Army Corps of Engineers (four dams on the main stem of the 
Columbia River, four dams on the lower Snake River), two large 
hydroelectric dams built by the Bureau of Reclamation on the upper 
reaches of the Columbia, cutting off access to about a third of the 
historic salmon spawning habitat, and several more hydropower dams 
built within the basin under license from the federal government. While 
there are other developments that have impacted the salmon, such as 
irrigation, dredging, mining, forestry, etc., NOAA Fisheries has 
acknowledged that the majority of the salmon losses due to development 
activities are a result of dams, with up to 90% of the juvenile salmon 
lost to dam mortality during their downstream migration.
    Current hydropower operations. It now appears that in the Pacific 
Northwest we will, as was the case in 2001, find ourselves once again 
in an extremely low water year. So, once again, the tribes fear that 
the salmon will be set up to lose in favor of preventing an energy or 
water crisis. The potential for an energy or water crisis does not 
lower the standard by which the United States must strive to meet to 
honor its obligations to the tribes and to the salmon; in fact, a 
drought increases the burden of the U.S. and its agencies to ensure 
that the salmon resource is protected from further injury and loss. 
This obligation is reinforced by the ESA, and is consistent with the 
obligation to treat salmon equitably with power generation under the 
Northwest Power Act.
    To honor its commitment now means that the U.S. must ensure that 
there is water in sufficient quantity and quality in the Columbia River 
to ensure the safe passage of out-migrating juveniles as well as for 
adult salmon returning upriver to spawn. It is not the current water 
conditions standing alone that are affecting tribal resources in the 
Columbia River basin. The real problems are management decisions made 
and actions taken by the federal and state agencies that have over 
subscribed the capacity of the system. It is these decisions and 
actions that put the long-term viability of the salmon resource in 
jeopardy. It is those decisions that set up a conflict between 
consumers of cheap hydropower and those that are dependent upon a 
healthy salmon resource.
    In the tribes' view, an energy crisis or water crisis are very real 
problems but they are short-term in nature. The true crisis, with long-
term implications, has already been declared in the Columbia River 
where numerous salmon populations are in danger of being lost to this 
and future generations. The region--as sovereigns--and with Congress' 
support and aid, must distinguish between managing for short-term 
inconveniences and preventing the realization of the true potential for 
long-term losses. Due to state and federal reactions to current water 
conditions, a heightened state of emergency has been created for our 
shared salmon resource.
    Common Sense Hydropower Management. With regard to the 
hydroelectric power system, the tribes continue to believe that the 
four dams in the lower Snake River must be breached to ensure the 
restoration of salmon in that basin. It is clear from the scientific 
data collected over years of study that breaching is the only sure 
course to salmon restoration. We are spending hundreds of millions of 
dollars on techno fixes each year to keep these dams in place. Most 
recently, the Corps of Engineers has begun to place removable spillway 
weirs at these dams--in essence, a giant water slide for outmigrating 
juvenile salmon. The tribes are concerned that this techno fix, like 
others before it, will not improve the long term survival of salmon.
    By removing these dams sooner, rather than later, we provide 
certainty to the system as to the amount of available power. These dams 
are run of the river and provide less than five percent of the power 
marketed by the BPA. By removing these dams, we speed the recovery of 
salmon runs returning to the Snake River, reducing the long term costs 
by eliminating both the costs of techno fixes and over time, the annual 
costs of mitigation for the operation of these four dams.
    We continue to believe that in lieu of dam breaching, a very 
aggressive program of increased flows through the reservoirs and spills 
at the dams must be pursued by the federal agencies to increase the 
survival of outmigrating juvenile salmon. Based on the overwhelming 
amount of information available from research conducted over the last 
30 years, the tribes do not believe that transporting fish in barges 
provides benefits anywhere near the equivalent of adequate flows and 
spill.
    In the interim, we advocate for adequate flow levels and for 
spilling water--and juvenile salmon--over the dams, not because we 
believe they are the answer to salmon recovery, but because they are 
the only two management actions at our disposal. They will lessen what 
promise to be unusually lethal impacts of the hydropower system at a 
time when salmon stocks in the Snake and upper Columbia River are at 
dangerously low levels. This cannot be considered enhancement but, at 
best, damage control.
    We know that during years with favorable river conditions (high 
flow and spill rates), smolt-to-adult returns (SARs) for upriver stocks 
that must navigate the several dams on the river compare most favorably 
with SARs for downriver control stocks, those that have no dams 
blocking their path to the ocean. We know that flow augmentation 
lessens the impacts of reservoirs and that spill lessens the impacts of 
dams.
    We now know that we would need many millions of acre-feet to 
approach flow levels even close to the historic hydrograph. Yet, 
getting back to the historic hydrograph isn't enough. Because the 
reservoirs behind the dams act to slow water velocity several fold, for 
flow, we would need to increase average precipitation several fold to 
compensate for the presence of reservoirs. Even in normal years, this 
would be impossible.
    The tribes, and many others, believe that the flow augmentation 
targets proposed by the federal agencies in the Biological Opinion are 
inadequate. Yet, the safest avenue for fish, providing for spill over 
the dams, is now subjected to drastic curtailment or complete 
elimination in order to provide water for power generation.
    Water is an extremely limited resource and the rivers throughout 
the region are already over-allocated under current management. While 
these waters serve other important uses and users, they are fundamental 
habitat for salmon. Salmon need these waters for instream flows. Our 
treaties, and the Federal and State trust responsibility to the tribes 
under our treaties, as well statutory obligations under the Endangered 
Species Act and the Clean Water Act, are there to protect these 
resources.
    In the Pacific Northwest, we live among a diversity of communities, 
industries and cultures. Each one has a stake in the fate of the salmon 
and shoulders the responsibility for salmon survival. The Endangered 
Species Act often becomes the focal point of frustration but we cannot 
overlook other contributing factors that impact salmon survival while 
also limiting the river's capacity to generate hydropower. If we try to 
analyze how the implementation of the ESA affects the costs of rural 
electricity, we will ignore other river uses and users that also affect 
the cost of rural electricity.
    For example, in the current draft of the Northwest Power and 
Conservation Council's 4th Annual Report to the Governors on the Fish 
and Wildlife Program, they state that irrigation is the largest non-
power user: irrigation accounts for net water withdrawals from the 
Columbia and Snake River system of about 14.4 million acre-feet of 
water annually. According to the Council's analysis, this volume of 
water, were it left in the river and used to generate hydropower 
instead of being withdrawn for irrigation, would yield about 625 
average megawatts of electricity (that is, averaged across all 12 
months) with a value of about $145 million per year. Therefore, rural, 
agriculturally based communities that divert water to nurture and 
sustain their livelihood also tap into the water supply that could 
otherwise be funneled through the hydropower system. Should we ignore 
this cost to the system? That doesn't seem fair when, at the same time, 
water that is needed to ensure the safe passage of salmon to the ocean 
is being charged as a cost against the ESA.
    The ESA did not create the salmon's need for water, it is there to 
remind us all of the salmon's need for adequate water quantity and 
quality. A sufficient level of water is simply not available for all 
the uses being proposed by the various user groups, especially during 
low water years. States should consider providing, and the federal 
government should consider supporting, funding incentives for setting 
or amending instream flows to levels higher than the current flows 
where necessary to ensure that these flows are adequate to meet the 
needs of fish. My point is that we are all in this together: while we 
enjoy the benefits, we must also recognize the consequences and find 
equitable solutions.
    The tribes are concerned that in low water years the states takes 
actions that favor irrigation needs exclusively over the needs of fish, 
thereby not honoring obligations to rebuild naturally spawning stocks 
of anadromous fish as required under U.S. v. Oregon, the Chinook 
rebuilding program of the U.S.-Canada Pacific Salmon Treaty, and the 
Northwest Power Act. Obviously, a state's action in reducing instream 
flow levels will not benefit salmon. Every cubic second foot of water 
available for instream purposes is more valuable in a drought year than 
in a year of normal runoff.
    In addition, a decision to allow has a cumulative impact: further 
reducing instream flows reduces the volume of water available for 
hydroelectric production and for spill for salmon and will adversely 
affect the region's interest in both these instream uses.
    What we need for salmon, and what rural economies need in terms of 
energy costs, is certainty. To achieve that certainty, we need to 
honestly assess the actual costs of hydropower energy development long 
deferred by energy users but borne by the salmon and the communities 
and cultures dependent upon healthy sustainable salmon runs. The 
Columbia Basin Fish and Wildlife Authority, a consortium of 13 tribes, 
4 states, and the federal fish and wildlife agencies, has developed a 
cost estimate for the implementation of subbasin plans developed under 
the auspices of the Northwest Power and Conservation Council.
    We believe that the Bonneville Power Administration should build 
these costs into their next rate case. Under the current rate case, 
costs were assumed to be an average of $186 million. For the next rate 
case, covering the years of 2007 through 2009, the costs should ramp up 
to an average of $240 million per year. The effect of including these 
costs on the hydroelectric power rates is minimal: for the average 
household that gets all of its power from BPA, building these costs in 
the power rate would mean an increase of about one dollar per month. 
BPA only provides about forty percent of the power in the Pacific 
Northwest, so most homes would see smaller monthly increases in power 
costs.
    Again, we must also look at the full suite of benefits of 
implementing the Council's fish and wildlife restoration programs 
through an increase in BPA rates: fiscal obligations of the federal 
government to carry out these activities on behalf of the tribes, and 
under the ESA, would be borne by those benefiting from power rates that 
are about 67% of the national average, fully funding these efforts 
would immediately create thousands of jobs in rural and tribal 
communities, the end result of restoration actions would be sustainable 
fish and wildlife populations that annually generate several hundred 
million dollars for regional economies. Almost all of the work would be 
in eastern Washington and Oregon, Idaho and Montana.
    Conclusion. The salmon resource, and with it, tribal rights 
reserved under treaties with the United States must not be the last 
priority of the list of considerations reviewed by the Congress in 
determining the appropriate costs to be borne by the federal and 
federally-licensed hydropower dams. To alleviate this burden, the 
tribes ask that Congress ensure that other river users are bearing 
their fair share of the conservation burden. To achieve regional and 
national salmon restoration goals, we believe that Congress should 
encourage the BPA to charge rates adequate to cover necessary costs of 
the implementation of subbasin plans, or else ensure that adequate 
funding is available through federal appropriations. In considering the 
effect that salmon restoration costs may have on rural electricity 
users, we note that the average power cost regionally will still be 
substantially below the national average. We believe that certainty in 
available funding, and certainty in associated costs, allows for good 
regional planning.
    We would also ask for your support of a National Tribal Energy 
Bill, which will foster expedited energy resource development on tribal 
lands and provide the Northwest tribes the opportunity to help 
alleviate the burden of energy reliance on the Columbia and Snake 
rivers by the rapid development of new cost effective power supplies to 
serve Northwest loads.
    [NOTE: Attachments submitted for the record by Mr. Patt have been 
retained in the Committee's official files.]
                                 ______
                                 
    Mr. Radanovich. Mr. Brown, welcome to the Subcommittee. You 
may begin.

STATEMENT OF MICHAEL W. BROWN, BOARD PRESIDENT, DIXIE ESCALANTE 
          RURAL ELECTRIC ASSOCIATION, NEWCASTLE, UTAH

    Mr. Brown. Thank you, Mr. Chairman. I appreciate your 
giving me the opportunity to testify before the Subcommittee 
today.
    Before I start into my testimony, I would like to commend 
you and Chairman Pombo for your work on updating and improving 
the Endangered Species Act. Updating this 30-year-old law is a 
monumental undertaking, and on behalf of the co-op members I 
represent, I would like to express our appreciation for your 
efforts so far.
    As you noted, my name is Mike Brown. I am a farmer and a 
rancher. I live in Southwestern Utah on my farm. The closest 
community to me is Enterprise, Utah, with a population of 
approximately 1,400. It is approximately 12 miles away from my 
farm.
    I am the President of the Board of Directors of Dixie 
Escalante Rural Electric Association, an electric cooperative 
serving approximately 10,000 customers in Southwestern Utah and 
Northwestern Arizona.
    Although we agree with the spirit of the ESA and its desire 
to protect threatened and endangered species, Dixie Escalante 
Cooperative has borne a heavy burden in complying with its 
rigid application in Southwest Utah. With the Subcommittee's 
indulgence, I would like to share some of the experiences we 
have had with the ESA in our service territory.
    The development of additional transmission capacities has 
been one of those experiences. Dixie's construction budget for 
critical transmission lines and substation has been 
significantly increased by the endangered and threatened 
species present in the small geographic area Dixie--in Southern 
Utah, they call it Dixie--serves. The endangered and threatened 
species we deal with include the dwarf-bear poppy, Southwestern 
willow flycatcher, Virgin River Chub, woundfin minnow, Shivwitz 
milk-vetch, California condor, desert tortoise, Siler 
pincushion cactus, bald eagle, Mexican spotted owl.
    One example of these impacts is evident in the construction 
of a 138-kilovolt transmission line needed to serve our area. 
This project route followed an existing power line corridor 
across public lands administered by the BLM and privately owned 
land. The project is located within the Red Cliffs Desert 
Tortoise Reserve, which is a 129,000-acre area that was 
designated as critical desert tortoise habitat by Fish and 
Wildlife Service in the early 1990s.
    Before the project was approved for construction, an 
environmental assessment was conducted to identify any impacts 
to the area. Due to the endangered and threatened species in 
the area, Dixie was required to perform the following tasks.
    Instead of using utility trucks, Dixie used a helicopter to 
set 24 poles because the restrictions and impact mitigation 
from using vehicles were exhaustive. To use a helicopter for 
setting the poles, Dixie was required to conduct an amended 
environmental assessment for noise, dust, air quality, 
recreation, public health, and safety considerations.
    Due to the restrictions of blasting holes for the poles, 
Dixie was required to contract with a third party with special 
equipment to pressure dig the pole holes. Dixie was required to 
keep any open-ended poles or holes covered that they may not 
allow any tortoise to enter and get trapped.
    Dixie was required to wash all vehicles upon entering the 
reserve each time to keep any plant species seeds that didn't 
already exist on the reserve from being introduced to the 
reserve.
    Our construction schedule had to be adjusted to meet the 
endangered and threatened species inactive time, which is from 
December 1 to February 15. This required Dixie to build during 
the winter, with additional crews and significant overtime due 
to the shortened construction timeframe.
    Dixie was required to reclaim areas used by any mobile 
travel, which included raking by hand and reseeding all 
disturbed areas. A consultant was hired to complete an 
environmental assessment for the project.
    Actual costs to construct the project were $781,863. The 
cost for the environmental additions were $325,594. The total 
cost of the project was a little over $1.1 million. Costs for 
the environmental additions increased the total project cost by 
42 percent. I would like to add that because Dixie Escalante is 
a rural electric cooperative, these costs were directly 
absorbed by our customers, many of whom live in economically 
depressed areas.
    Thank you, Mr. Chairman, for allowing me to share some of 
the experiences we have had in complying with the ESA. The 
heavy burden of complying with this 30-year-old law has not 
only complicated the delivery of electricity to rural areas, 
but has also increased the energy costs for the 10,000 member 
customs of our very rural electric co-op. We appreciate your 
efforts and Chairman Pombo's efforts in improving this 
important but outdated law.
    I look forward to answering any questions you might have 
about our experiences in Southwest Utah.
    Mr. Radanovich. Thank you, Mr. Brown, for your valuable 
testimony.
    [The prepared statement of Mr. Brown follows:]

               Statement of Michael W. Brown, President, 
               Dixie Escalante Rural Electric Association

    Thank you Mr. Chairman, I appreciate your giving me the opportunity 
to testify before the subcommittee today. Before I start into my 
testimony I'd like to commend you and Chairman Pombo for your work on 
updating and improving the Endangered Species Act. Updating this 30 
year old law is a monumental undertaking and on the behalf of the coop 
members I represent I'd like to express our appreciation for your 
efforts so far.
    As you noted, my name is Mike Brown. I am a farmer/rancher and I 
live in southwest Utah. The nearest community, Enterprise, Utah, 
population 1400, is 12 miles from my home.
    I am president of the Board of Directors of Dixie Escalante Rural 
Electric Association, an electric cooperative serving approximately 
10,000 customers in Southwestern Utah and Northwestern Arizona.
    Although we agree with the spirit of the ESA in its desire to 
protect threatened and endangered species, Dixie Escalante Cooperative 
has borne a heavy burden in complying with its rigid application in 
Southwest Utah. With the subcommittee's indulgence, I'd like to share 
some of the experiences we've had with the ESA in our vast service 
territory.
    The development of additional transmission capacity has been one of 
those experiences. Dixie's construction budget for critical 
transmission lines and substations has been significantly increased by 
the endangered and threatened species present in the small geographical 
areas Dixie serves. The endangered and threatened species we deal with 
include:
    <bullet>  Dwarf-Bear Poppy
    <bullet>  Southwestern Willow Flycatcher
    <bullet>  Virgin River chub
    <bullet>  Woundfin minnow
    <bullet>  Shivwitz Milk-Vetch
    <bullet>  California Condor
    <bullet>  Desert Tortoise
    <bullet>  Siler Pincushion Cactus
    <bullet>  Bald Eagle
    <bullet>  Mexican spotted owl
    One example of these impacts is evident in the construction of a 
138kV Transmission line. This project route followed an existing power 
line corridor across public lands administered by the BLM and privately 
owned land. A portion of the project was located within the Red Cliffs 
Desert Tortoise Reserve, which is a 129,000-acre area that was 
designated as critical desert tortoise habitat by the Fish & Wildlife 
Service in the early 1990's.
    Before the project was approved for construction, an Environmental 
Assessment was conducted to identify any impacts to the area. Due to 
the endangered and threatened species in the area, Dixie was required 
to perform the following tasks:
    <bullet>  Instead of using utility trucks, Dixie used a helicopter 
to set 24 poles because the restrictions and impact mitigation from 
using vehicles were exhaustive. To use the helicopter for setting poles 
Dixie was required to conduct an amended Environmental Assessment for 
noise, dust, air quality, recreation, public health and safety 
considerations.
    <bullet>  Due to the restrictions of blasting holes for poles, 
Dixie was required to contract with a third party with special 
equipment to pressure dig the pole holes.
    <bullet>  Dixie was required to keep any open-ended poles or holes 
covered that may allow Tortoise's to enter and get trapped.
    <bullet>  Dixie was required to wash all vehicles upon entering the 
reserve each time, to keep any plant species seeds that didn't already 
exist on the reserve, from being introduced to the reserve.
    <bullet>  Our construction schedule had to be adjusted to meet the 
endangered and threatened species inactive time, which is from December 
1, to February 15. This required Dixie to build during the winter with 
additional crews and significant overtime due to the shortened 
construction time frame.
    <bullet>  Dixie was required to reclaim areas used by any mobile 
travel, which included raking by hand and reseeding all areas 
disturbed.
    <bullet>  A consultant was hired to complete an environmental 
assessment for this project.
    <bullet>  Engineer's original estimated cost to construct this 
project was $787,962.00
    <bullet>  Actual costs to construct the project -- $781,863.00
    <bullet>  Costs for environmental additions -- $325,594.00
    <bullet>  Total cost of project -- $1,107,457.00
    Costs for environmental additions increased the total project cost 
by 42%. I would like to add that because Dixie Escalante is a rural 
electric cooperative, those costs were directly absorbed by our 
customers, many of whom are living in economically depressed areas.
    Dixie Escalante is only one of 10 rural electric cooperatives 
providing electricity in Utah. Similar experiences exist with other co-
ops not only with Threatened and Endangered Species, but with Sensitive 
Species.
    Garkane Energy, a rural electric cooperative serving central and 
southern Utah along with parts of Northern Arizona. Garkane is 
currently in the process of re-licensing a small hydro-electric 
facility that has been in operation for nearly 60 years. This process 
requires that the Forest Service issue a use permit. The use permit 
requires Garkane to conduct a study of the Goshawk--a sensitive 
species. The Goshawk study must be for two consecutive years only 
between the months of May, June & July. Thus any Forest Service Use 
Permit is at least a two-year process. Moreover, if a nest is found in 
the area maintenance can only be done after September and before 
March--during the winter months--at an elevation on the Boulder 
Mountain that is 9000 plus feet.
    Remarkably, this hydro facility has operated for sixty years in an 
area rich with all types of local plants and animals. It is not being 
modified only re-licensed. Again, the costs of studies required are 
borne directly by the customers of the cooperative.
    Thank you, Mr. Chairman, for allowing me to share some of the 
experiences we've had in complying with the ESA. The heavy burden of 
complying with this 30 year old law has not only complicated the 
delivery of the electricity to rural areas, but has also increased the 
annual energy bills for the 10,000 member/customers of our very rural 
electric coop. We appreciate your efforts and Chairman Pombo's efforts 
in improving this important, but outdated law and I look forward to 
answering any questions you might have about our experiences in 
Southwest Utah.
                                 ______
                                 
    Mr. Radanovich. Next is Mr. Steve Boyd with the Turlock 
Irrigation District. Steve, welcome to the Subcommittee.

 STATEMENT OF STEVEN BOYD, DEPARTMENT MANAGER, COMMUNICATIONS 
AND GOVERNMENT RELATIONS, TURLOCK IRRIGATION DISTRICT, TURLOCK, 
                           CALIFORNIA

    Mr. Boyd. Thank you. Mr. Chairman, members of the 
Committee, I appreciate the opportunity to speak to you 
regarding the Endangered Species Act. I will try to summarize 
our submitted testimony and then answer any questions you may 
have.
    The Turlock Irrigation District was organized in 1887 and 
holds the distinction of being the first publicly owned 
irrigation district formed in the State of California. 
Following closely behind, the Modesto Irrigation District was 
formed, and together, the two districts gained the most senior 
water rights on the Tuolumne River.
    Our most significant renewable resource is the powerhouse 
located at the new Don Pedro Reservoir on the Tuolumne River. 
Under our Federal Energy Regulatory Commission, or FERC, 
license, the Turlock Irrigation District operates and maintains 
the 204-megawatt power plant at Don Pedro. In the 30-plus years 
since its completion, the power plant at Don Pedro remains a 
significant source of low-cost energy and provides the 
operational flexibility needed to meet the demands of our 
93,000 electric retail customers.
    As part of that FERC license, the District and other 
interested parties entered into an agreement in 1995 to enhance 
and restore the Chinook salmon fishery in the Tuolumne River. 
Acknowledging our role in habitat improvement, we became the 
project manager for the Tuolumne River Restoration Project. In 
partnership with several agencies, the District is managing and 
directing a series of projects on the Tuolumne with a total 
cost of $25 million. This effort will improve the river channel 
and fishery condition on a 27-mile stretch of the Tuolumne 
River on a corridor below Don Pedro Reservoir.
    It is important to note that working to boost the salmon 
population on the Tuolumne required operational adjustments to 
the complex river system. These adjustments have a significant 
fiscal impact on power operations. Like most of California, the 
district's peak electrical demand occurs during hot summer 
afternoons. Water released for the fishery is not available to 
generate electricity to meet that peak demand. As Don Pedro is 
the district's cleanest, most cost effective form of power 
generation, this has an impact on our customers' rates.
    The 1995 agreement demonstrates that a common sense 
approach to environmental issues can yield significant results. 
Impractical implementation of environmental solutions can lead 
to wildly different results. For example, just three years 
after the District penned the agreement to rehabilitate the 
Chinook salmon on the Tuolumne, National Marine Fisheries, or 
NMFs, listed steelhead as a threatened species in Central 
Valley. This listing sent the District and other agencies to 
court to protest the listing as not being founded in sound 
scientific study. It needs to be noted here that the only 
difference between a rainbow trout, which is not listed, and 
the threatened steelhead is the fact that at some point in its 
lifespan, the steelhead makes a journey from fresh water to 
seawater.
    River re-operation for a fish that may or may not decide to 
make that trip is not scientifically acceptable. Although the 
rainbow trout may have always existed in the river, there is no 
record of a sustainable steelhead population on the Tuolumne in 
modern times. Based on that 1995 agreement, the river is being 
managed for the salmon and would require further re-operation 
to maintain a listed species population of steelhead. As the 
District and others believed the listing to be unlawful, we 
went to court for relief. The district prevailed and the courts 
ordered the steelhead listing must be reviewed by the Federal 
agencies for accuracy.
    Mismatched application of the ESA can work against our 
efforts on river restoration. Re-operation of the reservoir and 
river system to create a new environment for steelhead has 
significant impacts. Currently, there is a $10 to $20 per 
megawatt hour price differential between on-peak and off-peak 
wholesale electric rates. Multiplying that cost by the hundreds 
of thousands of megawatt hours Don Pedro generates each year 
indicates the severity of the issue. The loss of clean, on-peak 
hydroelectric energy also forces more reliance on energy 
created with fossil fuels, which are a limited resource with 
environmental consequences of their own.
    Further erosion of our renewable generation capabilities 
leave ratepayers exposed to market volatility, less system 
reliability, and more reliance on natural gas. Additionally, 
investment in the restoration of the Tuolumne for salmon would 
be placed at risk. There is no evidence to suggest that 
operating the river for two species would complement either 
one. It could be detrimental to one or both.
    Implementation of the ESA has to take into account local 
and regional impacts and weigh results accordingly. To be 
managed to its fullest capability, each resource must be 
examined against other resources. A rifle shot approach to 
these issues will not be successful and will ultimately drive 
up costs to consumers while limiting real environmental 
benefits. Thank you.
    Mr. Radanovich. Thank you, Mr. Boyd.
    [The prepared statement of Mr. Boyd follows:]

   Statement of Steven Boyd, Communications and Government Relations 
            Department Manager, Turlock Irrigation District

    Organized in 1887, the Turlock Irrigation District holds the 
distinction of being the first publicly owned irrigation district 
formed in the State of California. Following closely behind, the 
Modesto Irrigation District was formed, and together, the two Districts 
gained the most senior water rights on the Tuolumne River. In 1923, TID 
became the first irrigation district in California to distribute the 
electricity it generated on a retail basis to homes, farms and 
businesses in a defined service area that then measured 307 square 
miles.
    As a tributary to the San Joaquin River, the Tuolumne River 
originates high in the Sierra Nevada Mountains, flows down and across 
the Central Valley before merging with the San Joaquin River. Today, 
irrigation water from the Tuolumne flows through 250 miles of District 
owned canals and supports an agricultural economy valued over at $2 
billion in Stanislaus and Merced counties.
    TID has a rich history of developing and paying for the water and 
electric resources needed to meet its growing customer demands. With a 
peak electrical system demand of about 450 megawatts, the electric 
energy needs of our customers are met through a variety of short and 
long-term contracts as well as our own diverse generation resources. 
Recently the District began construction of a 250-megawatt natural gas 
fired power plant. The facility, located within our service territory, 
will help meet the electrical needs of our customer base for the next 
decade.
    As long time advocates of clean, renewable power the District 
constructed seven environmentally sensitive small hydroelectric 
generation plants on irrigation canals. The District has also made 
significant investment in renewable geothermal generation in Northern 
California. Our most significant renewable resource is the powerhouse 
located at New Don Pedro Reservoir. The reservoir, containing 2,030,000 
acre-feet of water when full, is the sixth largest body of water in 
California. Built with Modesto Irrigation District and completed in 
1971, the facility will be completely paid for by our ratepayers in 
July of this year.
    Under its Federal Energy Regulatory Commission (FERC) license, the 
Turlock Irrigation District operates and maintains the 204-megawatt 
power plant at Don Pedro. In the over 30 years since its completion, 
the power plant at Don Pedro remains a significant source of low cost 
energy and operational flexibility needed to meet the demands of our 
93,000 electric retail customers.
    As a part of that FERC license the District and other interested 
parties entered into an agreement in 1995 to enhance and restore the 
Chinook salmon fishery in the Tuolumne River. As principle steward of 
the river, the District has long supported a common sense approach to 
projects that protect the environment for future generations to enjoy.
    Acknowledging its role in habitat improvement, TID became the 
project manager for the ``Tuolumne River Restoration Project.'' In 
partnership with more than a dozen state and federal agencies, the 
District is managing and directing a series of projects on the Tuolumne 
with a total cost of $25 million. This effort will improve the river 
channel, riparian and fisheries conditions within a 27-mile stretch of 
the Tuolumne River corridor below Don Pedro Reservoir. The individual 
projects vary in scope from eliminating sand and gravel aggregate 
mining pits to creating conservation easements for riparian habitat on 
floodplain benches. All of the proposed improvements are intrinsically 
linked to a comprehensive, long-term state and federal effort to 
restore ecological health and improve water management for beneficial 
uses in California.
    Much of the work will correct the negative effects of the intensive 
land and mining development dating back to the California Gold Rush. 
Gold mining and latter day rock and gravel excavation operations 
reduced the low flow and bank full channel capacity, and changed the 
river channel conditions. Large mining pits created by huge gold 
dredges within and along the river harbor predatory fish such as bass 
that feed on juvenile salmon. Over time, the mining operations also 
reduced the amount of riparian habitat necessary for salmon migration 
and support of the terrestrial species along the river corridor. Even 
though the District was not responsible for the damage done to the 
river because of mining, it has worked to restore the river to a more 
natural state. Although characterized as a restoration project, the 
work could be more accurately described as a rehabilitation of the 
river.
    Since the inception of the various projects on the river, the 
restoration efforts have received much technical and environmental 
praise. The National Hydropower Association honored the District with 
Outstanding Stewardship of American Rivers Award for 2005. Also, 
American Rivers, a non-profit environmental organization, recently 
acknowledged that work done on the river has led to a significant 
improvement in the wild salmon habitat. It is clear that efforts to 
restore the Tuolumne are achieving measurable success and the District 
is proud to be a part of a sound scientific approach to improving the 
Chinook salmon fishery.
    The Tuolumne River has an annual runoff of nearly 2 million-acre 
feet over a 1900-acre watershed. It is important to note that working 
to boost the salmon population in the Tuolumne also required 
operational adjustments to the complex river system. These adjustments 
have a significant fiscal impact on power operations. Water released 
for the Chinook does not necessarily coincide with the power needs of 
District customers. Like most of California, the District's peak 
electrical demand occurs during hot summer afternoons. Water released 
for the fishery is not available to generate electricity to meet that 
peak demand. As Don Pedro is the District's most cost-effective form of 
power generation, this has an impact on our customers' rates.
    The 1995 agreement is an example that a common sense approach to 
environmental issues can yield significant results. If all stakeholders 
have equal footing and employ real science as the basis for decision-
making, positive change can be made that benefits all involved. Without 
this equal footing, impractical implementation of environmental 
solutions can lead to wildly different results. For example, just three 
years after the District penned an agreement to rehabilitate the 
Chinook salmon on the Tuolumne, National Marine Fisheries (NMFs) listed 
the ``steelhead'' as a threatened species in the Central Valley. This 
listing sent the District and other agencies into court to protest the 
listing as not being founded in sound scientific study. To understand 
this issue it must be noted that the only difference between a rainbow 
trout (not listed) and the ``threatened'' steelhead is the fact that at 
some point in its lifespan the steelhead makes the journey from 
freshwater to seawater.
    River re-operation for a fish that may or may not make that change 
is not scientifically acceptable. Although rainbow trout may have 
always existed in the river, there is no record of a sustainable 
steelhead population on the Tuolumne in modern times. Due to the 1995 
agreement the river was being managed for the salmon and would require 
further re-operation to maintain a ``listed'' species population of 
steelhead. As the District and others believed the listing to be 
unlawful they went to court to find relief. The District prevailed and 
the courts ordered that the steelhead listing must be reviewed by the 
federal agencies for accuracy.
    The listing will be dissolved by July of this year if NMFs cannot 
support the listing in a new ``proposed listing'' document. NMFs has 
submitted its proposed listing, but has not responded to the District's 
comments. Failure to address our issues in the listing will lead all 
parties back to court on this matter.
    The Turlock Irrigation District has always supported the use of 
sound science to sustain fishery enhancement. A full time aquatic 
biologist on staff for over 20 years ensures that river operations are 
maximized to promote and enhance a healthy salmon fishery. However, 
mismatched application of the Endangered Species Act can work against 
our efforts to date on river restoration. Due to the fact there is no 
science to support that steelhead actually inhabited the Tuolumne, use 
of the ESA to force the District to create an environment to sustain 
steelhead is not appropriate. Re-operation of the reservoir and river 
system to create this new environment has significant impacts. Not the 
least of which would be the fiscal impact to our ratepayers. Currently 
there is a $10-20 price differential per megawatt hour between on peak 
and off peak wholesale electric rates. Multiply that loss by the 
hundreds of thousands of megawatt hours Don Pedro generates, and the 
fiscal impact is obvious. The loss of clean hydroelectric energy on 
peak also forces more reliance on energy created with fossil fuels. 
Fossil fuels are a limited resource with environmental consequences 
associated with their use.
    Further erosion of our renewable generation capabilities leaves 
ratepayers exposed to market volatility, less system reliability and 
more reliance natural gas. Considering California's resource picture 
may not meet demand this summer in some areas and the fact that the 
state Legislature has set a priority on non-natural gas resources, this 
doesn't add up. Additionally, our customers' investment in the 
restoration of the Tuolumne for salmon would be placed at risk. There 
is no evidence to suggest that operating the river for the two species 
would complement either species. It could, in fact be detrimental to 
one or both.
    It is because of issues such as the listing of steelhead through 
the ESA that the District is in support of Congressman Dennis Cardoza's 
bipartisan work on the Critical Habitat Reform Act. The District 
believes that proper scientific study is needed before any species is 
listed as endangered or threatened. Without sound research, the 
restoration of one listed species could threaten another. In the 30 
years since the ESA's passage only 7 of 1300 listed species have been 
de-listed. The question remains as to whether this can be counted as 
``success.''
    The District also supports Chairman Radanovich's efforts on hydro 
re-licensing reform language. Turlock Irrigation District could be 
vulnerable to unreasonable interpretations of the ESA when moving 
through the FERC re-licensing process. The Energy bill passed in the 
House contains language that would put agencies like TID, at the very 
least, on equal footing in the process when it comes to mitigation 
efforts.
    These efforts constitute a step forward in the process of creating 
a more common sense approach to ESA administration. Implementation of 
the ESA has to take into account local and regional impacts and weigh 
results accordingly. Each resource, in order to be managed to its 
fullest capability, must examine how it impacts the use of other 
resources. Water for fish may mean more natural gas consumption to meet 
energy needs, which could in turn impact air quality. A rifle shot 
approach to these issues will not be successful and will ultimately 
drive up costs to consumers with no real environmental benefit 
attached.
                                 ______
                                 
    Mr. Radanovich. Next is Mr. Chad Smith of American Rivers. 
Mr. Smith, welcome to the Committee. Please begin.

 STATEMENT OF CHADWIN SMITH, DIRECTOR, NEBRASKA FIELD OFFICE, 
               AMERICAN RIVERS, LINCOLN, NEBRASKA

    Mr. Smith. Thank you, Mr. Chairman, members of the 
Subcommittee. I appreciate the opportunity to be here today. I 
come before you as a lifelong Nebraskan, hunter, angler, and 
conservationist. I grew up duck hunting and catfishing on the 
Platte River in central Nebraska and those experiences have 
grown into a passion for hunting and fishing that stands to 
this day.
    At the same time, I have been a consumer of some of the 
best and cheapest rural electric power in the country and today 
utilize power in my home in Lincoln, Nebraska, generated on the 
Missouri River through the Lincoln Electric System. Thus, I 
have a personal stake in assuring that the Missouri River 
provides hunting, fishing, and other recreational opportunities 
for my family, but also continues to serve as a source of 
affordable electric power.
    In the Missouri River Basin, it is clear to me that we can 
have our cake and eat it, too. We can improve the health of the 
Missouri River, boost local economies by tying them to a 
healthy river, and also support traditionally and 
Congressionally authorized uses of the river, like power 
production.
    In 2004, the U.S. Army Corps of Engineers completed a 15-
year process of revising dam management guidelines, or the 
master manual for the Missouri River. The presence of 
endangered and threatened species on the river was one of the 
key drivers of this process and much of the discussion focused 
on restoring more natural flows to the Missouri to prevent 
extinction of these species. Now that the Corps has completed 
the master manual, it is time to assess how this new manual 
addresses the needs of these species, but more importantly, 
whether or not it also addresses the needs of people in the 
basin through river uses like power production.
    Hydropower production accounts for the largest share of the 
traditional economic benefits generated by the Missouri River 
in each year, with annual benefits totaling nearly $700 
million. Thus, power production is an extremely important use 
of the river and potential impacts on that must be carefully 
and clearly evaluated as management changes are developed and 
implemented.
    According to the Corps, dam operations incorporating more 
natural flows would actually provide a two percent increase in 
the average annual hydropower benefits of the system. These 
flow changes were also found to increase the monthly average 
hydropower peaking capacity and the marketable capacity for the 
Western Area Power Administration in both the summer and winter 
seasons. Thus, in general, restoring more natural flows to the 
Missouri will result in an overall positive impact on the 
production of hydropower in the system. This conclusion was 
found to be accurate in a 2002 report on the Missouri River 
hydropower by hydropower economist David Marcus, which I have 
attached with my written testimony.
    However, the Corps' final Environmental Impact Statement 
also suggests that lower summer flows might result in a loss of 
firm power revenue on the Missouri River system of up to $30 
million. That number is debatable, as this estimate is based on 
energy prices from January 2001, when energy prices skyrocketed 
due to the California energy crisis.
    Using more typical current prices from a timeframe like 
June 2002, the prediction of revenue loss falls from roughly 
$30 million to around $3 million. That translates into about a 
1.5-cent per month increase for the typical residential 
consumer.
    In addition, the analysis used by the Corps in the 
Environmental Impact Statement to determine possible reductions 
in firm power revenue fails to consider several items that 
would likely result in positive economic benefits. Flow 
restoration would increase and would result in an increase of 
marketable capacity, which I mentioned earlier. Flow 
restoration would reduce hydropower losses during extreme 
climatic events, like drought, thus resulting in positive 
insurance value. And there is intra-system flexibility to do 
different things at the six big dams on the river to allow the 
Corps and the Western Area Power Administration to overcome 
some of this firm power loss potential.
    Another issue related to power production is the presence 
of coal-fired and nuclear generating plants along the lower 
Missouri whose generating plants operate under permits with 
thermal requirements for intake and return water. Power plant 
representatives continue to voice a concern about these thermal 
permits with low summer flows, both due to drought and also 
implementation of flow changes for fish and wildlife.
    Basin state agency leaders and Environmental Protection 
Agency staff are now taking a serious look at this thermal 
issue and are hoping to determine if any regulatory flexibility 
would be acceptable to help solve this problem. Other means of 
dealing with thermally heated return water, like using managed 
wetlands or building cooling towers, are now being routinely 
discussed by basin stakeholders, including the power companies, 
and we are trying to find the best solutions to meet both the 
basin's power demands and the needs of the endangered species 
present in the Missouri River Basin.
    One final item relating to power production and the 
Missouri River management is worth noting. The basin is now 
experiencing one of the worst droughts on record and system 
storage is at an all-time record low. The river's six Federal 
reservoirs are holding very little water. It is expected that 
the storage will be so low next year that the Corps will have 
to cease navigation on the lower river. Despite these 
conditions, the Corps is still operating the dams in 2005 to 
support downstream navigation.
    Despite the overwhelming value of power benefits compared 
to that of navigation, water is still being moved down the 
system for a very minor navigation industry to the detriment of 
power production and other river uses. It is my hope that the 
stress of this serious drought will help bring an evaluation of 
this policy and that the collaborative processes now beginning 
in the Missouri River Basin will help us better balance the 
river's uses.
    In conclusion, power production and endangered species can 
peacefully exist on the Missouri River. Power is a key use of 
the Missouri and it must be addressed as a priority as dam 
operation changes are implemented on the Missouri.
    Thank you for the opportunity to testify today and I look 
forward to answering your questions.
    Mr. Radanovich. Thank you, Mr. Smith.
    [The prepared statement of Mr. Smith follows:]

                 Statement of Chadwin Smith, Director, 
                 Nebraska Field Office, American Rivers

Introduction
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to present testimony on the Endangered Species Act and its 
role in Rural Electricity Service in the Missouri River basin. I am 
Chad Smith, Director of the Nebraska Field Office for American Rivers. 
American Rivers, founded in 1973, is the leader of a nationwide river 
conservation movement. American Rivers is dedicated to protecting and 
restoring healthy natural rivers, and the variety of life they sustain, 
for the benefit of people, fish, and wildlife. We are supported by over 
40,000 members nationwide and maintain offices in ten locations around 
the country, including the Nebraska Field Office in the Missouri River 
basin. From my home state of Nebraska, I direct American Rivers' work 
on the Missouri River, Platte River, and its burgeoning work on other 
specific rivers and important water policy issues in the Great Plains 
and Western United States.
    Since 1998, I have led American Rivers' Voyage of Recovery Campaign 
in the Missouri River basin. This Campaign is a multi-year effort to 
restore and protect the rivers of Lewis and Clark, including my work on 
the Missouri and Yellowstone Rivers and the work of my colleagues in 
our Northwest Regional Office on the Columbia and Snake Rivers. 
Convening the Missouri River Conservation Caucus and working with many 
other partners throughout the basin, American Rivers is playing a 
leading role in issues related to habitat restoration, flow 
restoration, fish and wildlife recovery, increasing the economic health 
of the basin through increased river recreation and tourism, and river 
governance and management reform.
    More than that, I come before you as a lifelong Nebraskan, hunter, 
angler, and conservationist. My roots are in the Platte River in 
Nebraska. I grew up duck hunting and catfishing on the Platte in 
central Nebraska, and those experiences have grown into a passion for 
hunting and fishing that stands to this day. At the same time, I have 
been a consumer of some of the best and cheapest rural electric power 
in the country, and today utilize power in my home generated on the 
Missouri River through the Lincoln Electric System. Thus, I have a 
personal stake in assuring that the Missouri River provides hunting, 
fishing, and other recreational opportunities for my family, but also 
serves as a continued source of electric power for the basin.
    After working on Missouri River management issues for over eight 
years, it is clear to me that we can have our cake and eat it too--we 
can improve the health of the Missouri River, boost local economies by 
tying them to a healthy Missouri, and also support ``traditional'' and 
Congressionally authorized uses of the river like power production. It 
is true that threatened and endangered species do exist on the 
Missouri, that these species are the subject of ongoing and intense 
debate, and that management changes directed at these and other species 
may have positive and/or negative impacts on river uses like power 
production. But, working together with river stakeholders, state and 
federal agencies, and Congress, we can find solutions to these 
challenges and ensure a healthy river and strong power production for 
future generations.
    The health of the Missouri River is in dire straits, and the river 
is simply not the destination of choice of most people in the Missouri 
River basin. Most have turned their backs on the Missouri, and it is 
not living up to its economic potential or providing the kind of 
quality of life benefits we expect from a big river system. Further, 
management inequities are exacerbating the effects of the very severe 
drought we are now experiencing in the basin and threaten to harm river 
uses like power production.
    Often, the Endangered Species Act (ESA) is invoked as a tool of 
last resort to prevent the continued decline in health of a natural 
system like the Missouri River. The focus is often on one or a few 
species, and those species receive much of the attention in the public 
policy debate. But, endangered and threatened species are mere 
indicators of greater problems in an ecosystem, and reflect the 
management changes necessary to help not just particular endangered 
species, but ultimately all of the native species that inhabit the 
ecosystem and the people that depend on that ecosystem as well.
    Over the past 15 years, the U.S. Army Corps of Engineers (Corps) 
spent millions of federal taxpayer dollars analyzing potential changes 
in the operation of six large mainstem dams on the Missouri River. This 
process was part and parcel of the Corps' attempt to update and revise 
the Missouri River Master Water Control Manual (Master Manual), the 
guidebook used to operate the river's federal dams. As a part of that 
analysis and before completing the Master Manual revision in 2004, the 
Corps evaluated dam reform options that incorporate more natural flows 
on the Missouri.
    Natural flow restoration has been called for by an independent 
panel of the National Academy of Sciences, the U.S. Fish and Wildlife 
Service (Service), and all of the fish and wildlife management agencies 
from the states in the Missouri River basin. The Corps itself found 
that restoring more natural flows to the Missouri River will actually 
result in an annual net economic benefit of at least $8.8 million for 
the basin, including a roughly 2% increase in average annual hydropower 
benefits.
    Further, the economic options presented by a Missouri River that 
once again actually looks and acts like a river are endless. By making 
the Missouri River a destination for hunters, anglers, boaters, 
campers, hikers, and families, communities up and down the river can 
tap into limitless economic possibilities associated with outdoor 
recreation and tourism. Coupled with ongoing power production, 
agricultural practices in the floodplain, and other ``traditional'' 
uses, the Missouri River can truly become an economic engine for our 
basin.
    The presence of endangered and threatened species on the river has 
been one of the key drivers in the past few years of discussions about 
how best to change river management. Now that the Corps has completed 
the Master Manual revision process, it is time to assess how the new 
Master Manual addresses the needs of these species, but more 
importantly whether or not it also addresses the needs of people in the 
basin through river uses like power production. We now need to focus on 
how to deal with potential impacts of flow restoration, ensure no 
single person or group is unfairly given the burden of management 
changes, and begin implementing a new vision for the Missouri River and 
the valley through which it flows.

Missouri River ESA Issues and the Master Manual Revision
    Like all rivers, the driving force behind the mighty Missouri River 
was its ``natural hydrograph''--the seasonal rise and fall of water. 
The Big Muddy experienced rising flows in the spring and early summer 
from melting snow and rain. Higher flows were followed by declining 
flows during the late summer and throughout the fall.
    Today, these seasonal fluctuations are gone, replaced by stable 
flows largely to support commercial barge traffic. Fish and wildlife, 
people, and local communities have paid the price. Three native 
Missouri River species are on the brink of extinction, and more than 50 
native species are listed by basin states or the federal government as 
rare, threatened, or endangered. Recreation on the river is given 
little priority in management decisions.
    In November 2000, the Service released its Final Biological Opinion 
on Missouri River dam operations. That biological opinion came on the 
heels of at least two previous similar opinions and again concluded 
that the interior least tern, piping plover, and pallid sturgeon were 
likely to go extinct on the Missouri River if the Corps failed to 
change dam operations. The Service proposed several elements of a 
``reasonable and prudent alternative'' intended to assist the recovery 
of those species. Key elements included:
    <bullet>  Increasing flows from Gavins Point Dam and Fort Peck Dam 
in the spring (``spring rise'') when water conditions permit, and 
reducing Gavins Point Dam flows each summer; this would not amount to a 
restoration of pre-dam conditions but would provide a semblance of the 
Missouri's natural rise and fall of water levels.
    <bullet>  Restoration of river and floodplain habitat.
    <bullet>  Reservoir unbalancing.
    <bullet>  Adaptive management of the river system.
    <bullet>  Intensive biological monitoring.
    The Service's recommended changes were designed to prevent the 
extinction of three endangered and threatened species, but also would 
benefit all native Missouri River fish and wildlife and thereby the 
many outdoor enthusiasts wanting to enjoy the river.
    In its January 2002 report on the Missouri River titled The 
Missouri River Ecosystem: Exploring the Prospects for Recovery, the 
National Academies of Science concluded that:
        ``Degradation of the Missouri River ecosystem will continue 
        unless some portion of the hydrologic and geomorphic processes 
        that sustained the pre- regulation Missouri River and 
        floodplain ecosystem are restored--including flow pulses that 
        emulate the natural hydrograph.''
    According to river biologists, the Service's recommended flow 
changes mimic key elements of the Missouri's historic flow patterns, 
including higher flows through mid-June and lower flows from mid-July 
through August. Federal, state, and university biologists note that 
this timeframe encompasses the spawning period of most Missouri River 
native fishes, including pallid sturgeon, smallmouth bass, channel 
catfish, and paddlefish, and nest initiation by interior least terns 
and piping plovers.
    In 2003, the Service amended its Biological Opinion. Some of the 
specific recommendations related to flow changes were altered, but the 
amended opinion retained the central tenet of the necessity and urgency 
of restoring more natural flows to the river. In 2004, the Corps 
completed the Master Manual revision process that roughly incorporates 
the flow recommendations of the Service's 2003 amended Biological 
Opinion. Both the amended opinion and the new Master Manual were upheld 
in the summer of 2004 through ongoing federal litigation, so flow 
changes such as the Service's 2006 spring rise recommendation are now 
being formulated for implementation through a basin-wide collaborative 
process.
    According to the Corps' own detailed analysis in the Environmental 
Impact Statement accompanying the new Master Manual, these moderate 
changes in dam operations can be made to improve the river's health and 
boost local economies through increased recreation and tourism, while 
protecting ``traditional'' uses of the river like hydropower, 
navigation, floodplain farming, and flood control. There will certainly 
be challenges in protecting these uses as flow changes are implemented, 
but through collaboration these challenges can be solved and the river 
can be rejuvenated for the use and enjoyment of the basin.

Missouri River Power Production
    By all accounts, hydropower production accounts for the largest 
share of the traditional economic benefits generated by the Missouri 
River each year, with annual benefits totally nearly $700 annually. 
Thus, power production is an extremely important use of the river, and 
potential impacts on that use must be carefully and clearly evaluated 
as management changes are developed and implemented. Impacts on power 
resulting from the restoration of more natural flows on the Missouri 
received detailed analysis by the Corps during the Master Manual 
revision process, and power continues to be a priority issue in 
discussions about how best to implement flow restoration options.
    According to the Corps, dam operations incorporating the flow 
changes recommended by the Service in the 2000 Biological Opinion 
provide a 2% increase in the average annual hydropower benefits over 
the old Master Manual water management plan. These flow changes were 
also found to increase the monthly average hydropower peaking capacity 
and the marketable capacity for the Western Area Power Administration 
(WAPA) in both the summer and winter seasons. Thus, in general, 
restoring more natural flows to the Missouri River will result in an 
overall positive impact on the production of hydropower on the Missouri 
River system. This conclusion was found to be accurate in a 2002 report 
on Missouri River hydropower by noted hydropower economist David Marcus 
(attached).
    However, the Corps' Final Environmental Impact Statement (FEIS) 
suggests that lower summer flows might result in a loss of firm-power 
revenue on the Missouri River system of up to $29.9 million. According 
to David Marcus' evaluation, this estimate is inaccurate because the 
firm-power revenue loss figures are based on an analysis completed by 
WAPA that is rooted in energy prices from January 2001, when energy 
prices were at an all-time record high due to the California energy 
crisis. Using more typical current prices from June 2002 (when Mr. 
Marcus completed his evaluation), the prediction of revenue loss falls 
from roughly $30 million to around $3 million. Even for customers who 
buy 100% of their electricity from WAPA, flow modification would only 
increase costs from 1.7 cents per kWh to 1.74 cents, or about 2 
percent. Customers buying only 10 percent of their electricity from 
WAPA might experience a 0.1 percent increase.
    The price of retail electricity also includes the cost of 
transmission, distribution, marketing, metering, and billing, none of 
which would be affected by Missouri River flow changes. This means that 
retail price increases due to flow changes would be even less than 
those for WAPA firm power customers. Without factoring in the positive 
impacts of increased capacity, the average rate increase for the region 
if flow changes were implemented would be about 1.5 cents per month for 
a typical residential customer.
    The original WAPA analysis ignores the value of increased 
marketable capacity on the Missouri River system that would come from 
restoring more natural flows to the river. If this were factored in, it 
is likely that flow changes could result in positive economic impacts 
of $8 million to $16 million annually. Also, the FEIS fails to discuss 
the fact that under an alternative incorporating more natural flows, 
the loss of hydropower during extreme drought and flood events is 
reduced as compared to both the old and new Master Manual. Not 
factoring this ``insurance value'' during extreme events into the 
analysis likely contributes to an overestimation of the negative 
impacts of implementing flow changes.
    The estimated revenue loss resulting from the implementation of 
flow changes can also be mitigated by opportunities to increase summer 
revenues at other Missouri River projects such as Ft. Peck Dam. For 
example, flat releases out of Ft. Peck during the summer of 2001 were 
marketed to offset power shortages due to drought in the Columbia 
Basin, generating substantial revenue for WAPA. This occurred while 
average releases during the summer of 2001 out of Gavins Point Dam were 
23,000 cfs. This type of intra-system activity can be used to help 
offset any potential negative impacts of restoring more natural flows 
to the Missouri.
    Another issue related to power production is the presence of 
generating plants along the lower river, both nuclear and coal-fired. 
In both cases, the generating plants have maximum ambient temperature 
requirements for river water intake, as well as maximum temperature 
requirements for discharge of thermally-heated water back into the 
Missouri River. Power plant representatives continue to voice a concern 
with low summer flows (both due to drought and due to potential lower 
summer flows for fish and wildlife purposes) relating to the 
constraints of currently permitted thermal levels.
    This is an example of a potential impact to a traditional use of 
the Missouri due to water management changes that needs to be quickly 
and fully addressed. Solutions do seem readily available to deal with 
these challenges, and the basin is starting to put a priority on 
dealing with potential power production problems. For example, research 
done by the Nebraska Game and Parks Commission, the University of 
Nebraska, and others in the 1970s determined that existing thermal 
discharges in the summer were not having significant biological impact 
on the Missouri River. This suggests that even if low flows did result 
in some thermal impacts, current temperature limits on return water 
could potentially be modified, or permit variances could be granted, 
allowing power plants to operate fully without causing significant 
negative impacts on the ecology of the Missouri River. Basin state 
agency leaders and Environmental Protection Agency staff are now taking 
a serious look at this issue and are hoping to determine what, if any, 
regulatory flexibility would be acceptable to help solve this problem.
    Further, other means of dealing with thermally-heated return water, 
like pumping this water first into created wetlands where temperature 
problems could be abated or building cooling towers, are now being 
routinely discussed by power companies, water suppliers, the EPA, the 
Corps, and other basin stakeholders to develop the best solutions to 
meeting the basin's power demands but also upholding the requirements 
of the ESA and ensuring the long-term ecological health of the Missouri 
River.
    One final item relating to power production and Missouri River 
management is worth noting. The basin is now experiencing one of the 
worst droughts on record, and system storage is at an all-time record 
low. The river's six federal reservoirs are holding very little water, 
and it is expected that storage will be so low next year that the Corps 
will have to cease navigation entirely on the lower Missouri. Despite 
these conditions, the Corps is still operating the river's dams in 2005 
to support downstream navigation, only shortening the season by about 
60 days in the late fall. This policy is further reducing the ``head'' 
behind the river's dams, which reduces generating capacity. Despite the 
overwhelming value of power benefits (about $700 million a year) 
compared to that of navigation (estimated by the National Academies of 
Science to be about $3million a year), water is still being moved down 
the system for a very minor navigation industry to the detriment of 
power production and other river uses. Thus, the new Master Manual has 
not solved this long-standing inequity. It is my hope that the stress 
of this serious drought will help bring about an evaluation of this 
policy and that the collaborative processes now being developed in the 
basin will result in a management system on the Missouri that better 
balances all the river's uses.

Conclusion
    Power production and endangered species can peacefully co-exist on 
the Missouri River. Power is a key use of the Missouri River, and it 
must be addressed as a priority as dam operation changes are 
implemented on the river. The needs of threatened and endangered 
species on the Missouri must be met, but those needs can be fulfilled 
at the same time as power production is sustained on the river for the 
basin's power consumers. It is important to place a priority on 
addressing the concerns of power producers on the Missouri related to 
drought and other potential flow management changes, and for the 
collaborative processes now underway in the basin to help find workable 
solutions to power production challenges that result from dam operation 
changes.
    I would like to thank the Subcommittee for the opportunity to 
provide my oral and written testimony on the interaction between Rural 
Electricity Service and the Endangered Species Act in the Missouri 
River basin. If any Members of the Subcommittee have further questions, 
I would be happy to respond in writing, or can be reached by telephone 
at (402) 423-7930 or e-mail at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bfdcccd2d6cbd7ffded2dacdd6dcded1cdd6c9dacdcc91d0cdd891">[email&#160;protected]</a>
                                 ______
                                 
    Mr. Radanovich. Next is Mr. Mac McLennan. Mr. McLennan, 
welcome to the Subcommittee. You may begin.

STATEMENT OF ROBERT ``MAC'' McLENNAN, VICE PRESIDENT, EXTERNAL 
  AFFAIRS, TRI-STATE GENERATION AND TRANSMISSION ASSOCIATION, 
    INC., WESTMINSTER, COLORADO, ON BEHALF OF THE NATIONAL 
            ENDANGERED SPECIES ACT REFORM COALITION

    Mr. McLennan. Thank you, Mr. Chairman. If it appears that I 
am pasty white and a little bit nervous, it is not because I am 
staring this way. It is because I have a whole bunch of bosses 
behind me this way.
    [Laughter.]
    Mr. McLennan. Chairman Radanovich, Ranking Member 
Napolitano, members of the Subcommittee, I appreciate the 
opportunity to appear before you at the Subcommittee today to 
testify on behalf of Tri-State Generation and Transmission and 
the National Endangered Species Act Reform Coalition regarding 
the impact of endangered species on rural communities and the 
folks who live there.
    My name is Mac McLennan. I am the Vice President for 
External Affairs for Tri-State, which is the wholesale electric 
provider of electricity to 44 rural electric cooperatives who 
serve the rural communities in Colorado, Wyoming, Nebraska, and 
the State of New Mexico. Tri-State is also one of the largest 
customers of hydroelectricity generated by the Bureau of 
Reclamation and the Army Corps of Engineers in the interior 
West.
    In my spare time, I also serve as the Chairman of the 
National Endangered Species Act Reform Coalition, or NESARC. 
NESARC is a broad-based coalition with more than 100 member 
organizations representing millions of individuals across the 
U.S. that are dedicated to updating and improving the 
Endangered Species Act.
    Mr. Chairman, my family and I, along with all of our 
members, many of whom are here in the audience today, live in 
the communities that we serve. Tri-State, along with NESARC, 
has been very involved for more than the last decade in efforts 
to find solutions and develop legislative improvements that 
ensure we have an Endangered Species Act that actually does 
what it says, which is to recover the species.
    While my written testimony reflects eight specific 
recommendations for improvement, let me just use a couple of 
examples to drive home the point that our recommendations need 
to be focused on efforts that truly update and improve the ESA.
    For example, I just learned yesterday that one of our 
members, Gunnison Electric, based in Colorado, is faced with 
the possible listing of the Gunnison sage grouse. That is 
currently being discussed. If the Gunnison sage grouse is 
listed, it could force this small $30 million cooperative to 
spend more than $15 million to move lines, underground lines, 
and change its maintenance practices, an unlikely or nearly 
impossible task. However, if we can improve the Endangered 
Species Act to provide for expanded voluntary efforts, increase 
the funding for local initiatives, enhance prelisting 
considerations, we might save the species and protect the 
community, much like in the greater sage grouse decision that 
just came down without actually listing the grouse.
    With respect to changes to open and enhance the 
decisionmaking or sound decisionmaking process, let me use this 
example. In 1998, as a result of a petition to list, the U.S. 
Fish and Wildlife Service listed the Preble's Meadow jumping 
mouse as endangered based on a 50-year-old study which 
concluded that the mouse was a separate and distinct subspecies 
eligible for protection under the ESA. Subsequent studies, 
including DNA testing and actual skull measurements, have 
concluded that there is no basis for the determination that the 
mouse is a distinct subspecies. However, since listing in 1998, 
millions of dollars have been spent, including consideration to 
change the siting of electric lines, changes in maintenance 
practice, and the ability to access our facilities in any 
number of other things have impacted electric cooperatives and 
the members who live there, all for a species that may have 
been listed in error.
    The Endangered Species Act can be improved by requiring 
better data collection, independent scientific review for both 
the listing and recovery decisions. We might have avoided this 
expensive listing. We thank Congressman Walden for the work he 
has done at this point, too, in trying to address this.
    To address the issue of what I would call the litigation 
bottleneck in the establishment of recovery objectives, let me 
use this example. More than 15 years ago on the hydro side, we 
developed the Upper Colorado River Recovery Program to recovery 
four endangered fish in the Upper Colorado River, which at this 
point is a significant cost, millions to the customers in our 
region. Having said that, environmental interests, the water 
users, the power customers joined with both State and Federal 
agencies to participate in the recovery of the species.
    Following extensive data collection and environmental 
studies, we have determined that sufficient information existed 
to proceed with the development of recovery goals. Recovery 
goals were developed over several years with collaborative 
input from the public, private, tribal stakeholders, and 
scientists from the basin. In spite of all that work and 
extensive process and the positive results that are being 
achieved and the certainty that those goals at one point 
provided, the recovery goals are now the subject of a legal 
challenge by environmental groups outside of those who were 
involved in the process, creating significant uncertainty and a 
challenge about whether or not we will actually be able to meet 
the goals necessary.
    These types of legal challenges divert time and energy from 
the efforts to recover the species and consideration should be 
given to appropriate changes to improve the Endangered Species 
Act so as to reduce these burdens.
    Mr. Chairman, in closing, I would like to thank you for 
holding this hearing today, commend the Committee for its 
leadership on efforts to update the Endangered Species Act. We 
have to find ways to improve the laws that families, 
businesses, local governments must abide by while protecting 
the values of those who live in the West and follow those. 
There are improvements that can be made and we can do it 
better, faster, with better tools and more efficiently than we 
do today. Thank you.
    Mr. Radanovich. Thank you, Mr. McLennan. We appreciate your 
testimony.
    [The prepared statement of Mr. McLennan follows:]

Statement of Robert ``Mac'' McLennan, Vice President, External Affairs, 
 on behalf of Tri-State Generation and Transmission Association, Inc., 
   and The National Endangered Species Act Reform Coalition (NESARC)

    Chairman Radanovich, Ranking Member Napolitano and members of the 
House Subcommittee on Water and Power, I appreciate the opportunity to 
appear before this subcommittee today to share Tri-State Generation and 
Transmission Association's and the National Endangered Species Act 
Reform Coalition's views regarding the impact of the Endangered Species 
Act on rural communities and the people who live there.
    My name is Mac McLennan, and I am the Vice President of External 
Affairs for Tri-State Generation and Transmission Association, a not 
for profit wholesale power supply cooperative that provides electricity 
to forty-four member distribution cooperatives in Colorado, Nebraska, 
Wyoming and New Mexico. As Vice President, I oversee Tri-State's 
government relations, communications and external association 
activities. Tri-State is based in Westminster, Colorado, and has 
facilities and employees throughout the region. Tri-State and its 
member systems provide electric service to nearly one million electric 
customers, primarily located in rural communities. Tri-State is also 
one of the largest customers of hydroelectricity generated by the 
Bureau of Reclamation and the Army Corps of Engineers in the interior 
West.
    I also serve as Chairman of the National Endangered Species Act 
Reform Coalition (NESARC). NESARC is a broad based coalition of more 
than 100 member organizations representing millions of individuals 
across the United States that are dedicated to updating and improving 
the Endangered Species Act (ESA).
    Mr. Chairman, my family and I, along with all of our Tri-State 
members, live in the communities that we serve. We understand fully the 
needs of these communities, including the vital role that these 
communities play in the economic development and livelihood of rural 
America. I also understand the important role utilities play in 
supplying the power necessary to meet the growing demand in the western 
states. I have a deep appreciation and respect for our land and water 
resources, and I believe we can and must find ways to do a better job 
of recovering endangered species while protecting the economic 
viability of rural communities.
    As a utility that serves consumers who are impacted in numerous 
ways, Tri-State has been very involved for more than a decade in 
efforts to find solutions and develop legislative improvements that 
ensure we have an Endangered Species Act that actually achieves its 
goal, recovery of endangered species. In the last decade, we have 
learned a lot about what is successful and what is not in the recovery 
of endangered species. In the last year, Tri-State, along with other 
members of NESARC, has spent countless hours dissecting the Endangered 
Species Act and identifying the issues that need to be addressed to 
ensure we do a better job of recovering species. We have identified the 
following issues as those most critical to the recovery of endangered 
species while continuing to protect the economic vitality of not only 
our rural communities by all communities impacted by the Endangered 
Species Act.
    We need to make sure that our efforts are focused on efforts that 
truly update and improve the ESA, including measures in the Act that 
would:
    <bullet>  Expand and encourage voluntary conservation efforts
    <bullet>  Increase funding for voluntary State and local programs
    <bullet>  Give states the option of being on the front line of 
species conservation
    <bullet>  Establish realistic recovery goals
    <bullet>  Encourage voluntary prelisting measures
    <bullet>  Improve habitat conservation planning procedures and 
codify ``No Surprises''
    <bullet>  Ensure an open and sound decision making process
    <bullet>  Find ways to remove the litigation bottleneck
    The Endangered Species Act is more than 30 years old and has 
recovered less than one percent of the more than 1,300 species listed 
as threatened or endangered in the United States. At the same time, the 
Act has negatively impacted rural communities throughout the country. 
There are improvements that can be made to the Act that will provide 
new tools and find better, faster and more efficient ways to protect 
and recover species.
    First, it is important to establish realistic recovery objectives. 
In order to enhance and improve efforts for species conservation, 
objective and quantifiable recovery goals should be set to serve as 
guideposts for voluntary conservation efforts. Once the recovery 
objective is met, the species must be delisted or down listed. It is 
important to incorporate voluntary conservation efforts in this process 
by creating new avenues for private property owners to participate 
proactively in species recovery. These efforts could include creating a 
habitat reserve program, tax incentives, loan or grant programs, and 
other initiatives that encourage landowners to voluntarily participate 
in species conservation efforts.
    It is imperative that States and local entities have a greater role 
in facilitating landowner/operator compliance with the Act and, 
ultimately, the recovery of species in order to remove the restrictions 
of the ESA. States have significant financial resources, research 
capabilities, and coordination abilities that can allow for better 
planning of species management activities. Further, States are often 
better situated than federal agencies to develop and maintain 
cooperative efforts between stakeholders to protect and manage the 
local resources and species. This is of particular importance to rural 
communities, who have the best understanding of their specific 
potential for protecting and enhancing species. Federal funding 
priorities should be refocused away from bureaucratic decisions and to 
active conservation measures that ultimately support voluntary programs 
and State-led initiatives, including the establishment of dedicated 
funding streams supporting voluntary conservation efforts and State/
local initiatives.
    Prelisting measures should also be incorporated into species 
conservation efforts. State and local governmental agencies as well as 
private landowners should be encouraged to develop and implement 
species and habitat programs for species that are being considered for 
listing. Too often the ESA is hurriedly invoked without consideration 
of other state, local and private efforts that can and will do a better 
job of protecting and improving species populations. In determining 
whether listing of a species is necessary, the existing Act only 
provides for a limited consideration of State programs that protect 
species and does not allow the Secretary to consider voluntary programs 
implemented by private landowners that also protect and enhance species 
and their habitat.
    The critical habitat designation process under the ESA must also be 
strengthened. It is important that designations are supported by sound 
decision-making processes, take into account existing habitat 
protection measures, and rely on timely field survey data. 
Additionally, the Habitat Conservation Planning (HCP) process should be 
streamlined so that rural communities are not unfairly negatively 
impacted by the delays and costs of getting approval. Landowners also 
deserve regulatory certainty when involved in conservation efforts. As 
such, the ``No Surprises'' policy must be codified in ESA and cover all 
commitments by private parties to voluntary protection and enhancement 
of species and habitat.
    Finally, it is important that an open and sound decision-making 
process exist in all aspects of species recovery and conservation. The 
process must allow for full public participation, better data 
collection, and independent scientific review to support decisions made 
on listings, critical habitat designations and recovery efforts.
    To bring these issues closer to home, I would like to share with 
you several examples of endangered species issues that have affected 
Tri-State and our member systems during the past several years and how 
these examples illustrate potential ways to improve the ESA.
    Recently, the U.S. Fish and Wildlife Service decided not to list 
the Greater Sage Grouse as an endangered species. A decision to list 
the Sage Grouse could have had disastrous consequences for both the 
species and for the rural residents making a living on the land. Eleven 
states and two Canadian provinces, more than 70 local working groups 
and the private sector were engaged in an active voluntary program to 
conserve the Sage Grouse when a lawsuit was filed compelling the Fish 
and Wildlife Service to make a listing decision. Fortunately, the 
voluntary measures had progressed sufficiently and the Service 
determined that listing was not warranted. However, had the Service 
been forced to make the determination several years sooner, the result 
could have been much different and would have jeopardized a very active 
cooperative conservation program that is showing positive results. The 
ESA can be improved by encouraging voluntary conservation efforts, by 
increasing funding for voluntary programs, and by encouraging 
prelisting measures.
    Several years ago, as a result of a petition to list, the U.S. Fish 
and Wildlife Service listed the Preble's Meadow Jumping Mouse as 
endangered based on a fifty-year old study which concluded that the 
mouse was a separate and distinct subspecies eligible for protection 
under the ESA. Subsequent studies, including DNA testing and actual 
skull measurements have concluded that there is no basis for the 
determination that the Preble's Meadow Jumping Mouse is a distinct 
subspecies, and that in fact it is identical and is the same species as 
the Bear Lodge Jumping Mouse. In addition, population studies 
subsequent to the listing decision have indicated that the actual 
population estimates are actually 400 percent greater than the original 
estimates. Since the listing in 1998, millions of dollars have been 
spent to protect a species that may have been listed in error, and the 
Fish and Wildlife Service has estimated that $100 million would be 
spent over the next decade in species protection to meet the 
requirements of the law. The Fish and Wildlife Service is currently 
evaluating the new data to determine if the 1998 decision was made in 
error. The Endangered Species Act can be improved by ensuring an open 
and sound decision-making process, by requiring better data collection 
and independent scientific review to support both the listing and 
recovery decisions.
    More than fifteen years ago, the Upper Colorado River Recovery 
Program was initiated when the Governors of Colorado, Utah and Wyoming, 
the Secretary of the Interior, and the Administrator of the Western 
Area Power Administration signed a cooperative agreement to recover 
four endangered fishes in the Upper Colorado River, upstream from Lake 
Powell. Environmental interests, water users and power customers have 
joined with the state and federal agencies to participate in the 
recovery of the species. Following extensive data collection and 
environmental studies, it was determined that sufficient information 
existed to proceed with development of recovery goals. The U.S. Fish 
and Wildlife Service approved final basin-wide recovery goals for the 
endangered humpback chub, bonytail, Colorado pikeminnow, and razorback 
sucker in August 2002. The recovery goals were developed over several 
years with collaborative input from public, private and tribal 
stakeholders, and scientists from the Colorado River Basin. In spite of 
the extensive process and the positive results being achieved for the 
species, the recovery goals are now the subject of a legal challenge by 
environmental groups outside of those involved in the recovery process. 
These types of legal challenges divert time and energy from efforts to 
recover the species and consideration should be given to appropriate 
changes to improve the ESA so as to reduce these burdens.
    Mr. Chairman, in closing, I would like to thank you for holding 
this hearing today and commend the Committee for its leadership in 
efforts to update the Endangered Species Act. We must continue to find 
ways to improve the laws that families, businesses and local 
governments must abide by while protecting the values those of us in 
the West live by and follow.
                                 ______
                                 
    Mr. Radanovich. Next is Mr. Steve Eldrige, General Manager 
of the Umatilla Electric Cooperative. Steve, welcome to the 
Subcommittee. You may begin.

    STATEMENT OF STEVEN ELDRIGE, GENERAL MANAGER AND CHIEF 
 EXECUTIVE OFFICER, UMATILLA ELECTRIC COOPERATIVE, HERMISTON, 
                             OREGON

    Mr. Eldrige. Thank you very much for this opportunity. We 
have had two major ESA events over the past 25 years, spotted 
owl and salmon--coastal salmon, Puget Sound salmon, Columbia 
River, and Snake River salmon.
    The development of the Pacific Northwest followed very much 
along the lines of most of the country. We logged and cleared 
areas for the cities that now reside there. We dammed streams 
for irrigation, drinking water, and so on. We fished. And I 
think in that time, maybe we had a greater appreciation that 
all wealth comes from the earth, perhaps more than we do now.
    The end result is that modern society has overwhelmed the 
natural environment which preexisted us. It hasn't destroyed 
it, but it has radically changed it. So it is kind of obvious, 
isn't it?
    Well, in the Pacific Northwest, it is only Bonneville's 
customers that are paying for recovery of Columbia and Snake 
River salmon, not all of society. They bear the sole weight of 
this cost.
    Because the Pacific Northwest hasn't grown as fast as other 
areas, our hydropower is predominately the source for the 
energy that we have. In fact, the Pacific Northwest has less 
hydropower than the State of California, but we haven't used 
it. We haven't gone beyond it like other parts of the country 
have.
    The energy from the Federal dams are marked by Bonneville 
Power Administration. There are about 7,000 average megawatts, 
and it is sold at cost to customer-owned utilities, such as 
Umatilla Electric.
    In 1980, the Northwest Power and Conservation Act was 
passed and it set in motion that two representatives of each of 
the Pacific Northwest States would form a council, the States 
of Oregon, Washington, Idaho, and Montana, and they had two 
charges, this planning power council, and that was that they 
would provide an adequate, reliable, economic power supply and 
that they would enhance, mitigate, and protect Pacific 
Northwest salmon.
    In ten years' time, we have spent $1 billion on salmon and 
then the listings for salmon, steelhead, bull trout, Kootenai 
white sturgeon began. Today, there are 15 listed species 
endangered or threatened the customers of Bonneville Power 
alone are paying for. We have provided $6.6 billion for 
recovery of these fish. Next year, the budget for Bonneville 
will be $700 million. And if I read the GAO report for the U.S. 
Fish and Wildlife, that is three times their budget, their 
annual budget.
    By now, we have de-rated the Federal system by 1,000 
megawatts of firm renewable energy. It does comprise--fish cost 
does comprise 28 percent of our wholesale power bill. Most 
cooperatives in Oregon's retail rates are over seven cents a 
kilowatt hour. Yet we do not know yet when salmon will be 
recovered and we do not know what will constitute salmon 
recovery.
    Only about half of the citizens of the Pacific Northwest, 
the customers of BPA, are bearing this economic burden because 
the rest of the people buy their energy from someone else.
    So what is to be done? The ESA law must be refined so that 
it gives much better policy direction than it does now. Marine 
mammals--we have 100 sea lions at the base of Bonneville Dam, 
the lowest dam on the Columbia River, about 100 miles from the 
Pacific Ocean. They are eating over two-and-a-half percent of 
the available salmon. We are pretty sure they are targeting 
female salmon, stripping the egg sacs and leaving the rest to 
just float to the bottom. They have figured out how to get into 
the fish ladders. Now, in history, sea lions went as far as 
Sligo Falls. That is not going to help us recover the salmon. 
What we doing to try to discourage this is make loud noises in 
the water. It hasn't worked so far.
    Then we have the Migratory Bird Treaty Act. We have created 
the largest concentration of Caspian terns at the mouth of the 
Columbia, and it is on a manmade island, Rice Island, created 
by spoils from the Corps of Engineers. We have been unable to 
do much about that. After years of trying, millions of dollars, 
litigation, we have cajoled about half of them to move on. So 
instead of eating ten percent of migrating juvenile salmon, 
millions and millions of fish, they are down to five percent, 
but they still remain and we can't move them on.
    A single judge should not be able to substitute their 
judgment for that of Federal agencies unless there is clearly 
defined grounds to do so. ESA costs must be borne by all who 
have contributed to the listing. ESA must have performance 
standards to meet before additional funds are expended. We have 
spent $300 million in scientific studies, and yet we still have 
not defined recovery.
    The ESA must recognize what the environmental conditions 
actually are, not what groups wish they were. We have spent the 
last 25 years trying to turn the clock back. We have made our 
dams look like waterfalls. We have tried to augment flows by 
emptying storage reservoirs and moving the water velocity just 
a tiny fraction of what the rivers moved pre-dam. It has no 
effect, just huge expense. We cannot go back to Lewis and 
Clark.
    In closing, we want recovery of salmon, too, and we must 
meet our treaty obligations. But we do not believe that this 
has to be accomplished with a blank check, nor do we believe 
salmon recovery should be the never-ending story. Thank you.
    Mr. Radanovich. Thank you, Mr. Eldrige. I appreciate your 
testimony.
    [The prepared statement of Mr. Eldrige follows:]

       Statement of M. Steven Eldrige, General Manager and CEO, 
                     Umatilla Electric Cooperative

Introduction:
    Steve Eldrige has been the General Manager and CEO of Umatilla 
Electric Cooperative (UEC) since December of 1990 and has over 30 years 
of electric utility experience. Steve is currently Chairman of the 
Governor's Oregon Rural Policy Advisory Committee, Eastern Oregon 
Telecom, LLC, and the Oregon Rural Electric Cooperative Association 
Government Affairs Committee. He serves on the Boards of Pacific 
Northwest Generating Cooperative, Pacific Northwest Utilities 
Conference Committee, the Good Shepherd Hospital Board of Trustees, 
Northwest Open Access Network Oregon Cooperative--now known as LS 
Networks, Inc., and Ruralite Services. Steve also represents UEC on the 
Bonneville Power Administration Power Function Review Committee, Oregon 
Managers Group, Oregon Development Group, and the Tri-Herm Group.
Testimony:
    Salmon and steelhead of the Pacific Northwest have a storied 
history. For many years, these runs fed the region's Native Americans 
before European trappers, explorers and settlers arrived. The early 
settlers found that salmon runs were not reliable enough in all areas 
to be the sole food supply and began to encourage farming, but when the 
salmon arrived they were in prodigious numbers. Lewis and Clark made 
note of salmon, novelist Zane Grey wrote of salmon and steelhead, and 
fishing economies through the early twentieth century were robust. 
(Figure 1).
    Early documents show that by the mid to late 1800's, commercial 
harvest of salmon reached 50 million pounds. Actual harvest may have 
been far greater since regulations during this period were minimal, at 
best. Salmon harvest peaked in 1890 then declined at about the same 
rate for the next 80 years. The Pacific Northwest, as with much of the 
west, was formed as we know it today in the period from Lewis and Clark 
through World War II. Development included: Tributaries were dammed 
without fish passage for irrigation, recreation, and drinking water; 
forests were logged to make room for the cities of Portland, Seattle 
and Spokane; land was cleared for farming and timber harvested to meet 
lumber demands throughout the world. More than 10 million people make 
their home where no more than 50,000 Native Americans once co-existed 
with nature.
    Figure 2 illustrates harvest declining as the region developed, 
including construction of federal dams on the Columbia River. By 1933, 
when the first Columbia River dam was constructed at Rock Island, 
several hundred miles from the Pacific Ocean, salmon harvest had 
declined by more than 50%. When the last Columbia River dam closed at 
John Day in 1968, salmon harvest had declined to one-seventh of their 
historic peak. Salmon runs which were estimated at 15 to 8 million fish 
in the 1800's, had fallen to 1.5 million in 1968. 757,339 salmon and 
steelhead were counted passing Bonneville dam in 1969. No one argues 
with the truism that modern society is the overwhelming factor 
affecting the balance of nature. Not just the dams, or the cities and 
the millions of people; not just the freeways or logging or farming; 
not just one of these human activities, but all of them comprise modern 
society.
    Dams on the lower Snake River (Figure 4) were constructed between 
1962 and 1975. By 1980, salmon and steelhead numbers entering the 
Columbia River were 1-2.3 million fish, with 455,706 fish counted 
passing Bonneville Dam. Table 1 is a chronology of salmon related 
events over the past 200 years.
    In 1978 the National Marine Fisheries Service (now known as NOAA) 
and the U.S. Fish and Wildlife Service, had begun review of the upper 
Columbia River and Snake River salmon and steelhead for potential 
Endangered Species Act (ESA) listing. In 1980, the Northwest Electric 
Power Planning and Conservation Act (Northwest Power Act) became 
federal law. The Northwest Power Act created the Northwest Power 
Planning Council which was comprised of two representatives from each 
of the Northwestern States--Oregon, Idaho, Washington, and Montana. The 
Power Planning Council had two directives from the Power Act. First, 
they were to assure an adequate, reliable, economic power supply; and 
second the Power Planning Council was to protect, mitigate, and enhance 
regional salmon runs.
    The Council's original salmon goal was to increase salmon and 
steelhead runs to 5 million fish. Runs of 5 million fish were believed 
to be of a size to forestall any ESA listings. By 1986, runs had 
increased to 3.2 million, but then fell to 1.3 million in 1990. 
$982,500,000 was spent during the period from 1978 through 1990, 
funding provided solely by Bonneville Power Administration customers to 
enhance, protect, and mitigate regional salmon and steelhead.
    Snake River sockeye salmon, which Idaho had made a concentrated 
effort to eradicate in order to build a premier trout fishery, were 
listed in ESA in 1991. Snake River spring, summer and fall Chinook were 
listed in ESA in 1992. At the present time, eight runs of salmon, five 
runs of steelhead, Kootenai River white sturgeon and bull trout 
throughout the Columbia River Basin are listed. After these first 
listings, the Power Planning Council adopted strategies which amounted 
to an effort to return the Columbia River, as much as possible, to pre-
dam conditions (i.e. fast water and cold temperatures compared to now).
    Spring and summer spill, <SUP>1</SUP> along with flow augmentation 
<SUP>2</SUP>, became operating policies of the hydroelectric system. 
Spill is intended to assist juvenile salmon and steelhead in getting 
past the dams and thereby reducing mortality rates. Augmentation is 
meant to decrease juvenile salmon and steelhead mortality by increased 
river velocity. The basis for these spill and augmentation policies is 
that salmon were in abundance before the dams were constructed, at a 
time when the rivers flooded each spring and ran as nature provided.
---------------------------------------------------------------------------
    \1\ ``Spill'' occurs when water which could go through turbines to 
generate electricity is instead sent through the spill way, generating 
no electricity.
    \2\ Flow augmentation occurs when water stored in reservoirs is 
used to augment natural river flows.
---------------------------------------------------------------------------
    Spilling water is so that dams are made to look like waterfalls. 
Proponents of spill assert that any increased spill, no matter how 
slight, is inherently good for salmon and steelhead. This philosophy 
also led the Council to set flow targets at levels which cannot be met. 
(Figure 6). Since these flow targets cannot be achieved, any further 
withdrawals cannot be allowed (above Bonneville Dam only). Because one 
more drop of water withdrawn makes the augmentation short fall one drop 
of water greater. The flow augmentation currently in place cannot be 
met, yet it remains in place. Spring and summer spill have very slight 
benefit to salmon and steelhead, but are enormously costly. Many 
believe that more salmon and steelhead benefits are available at much 
lower cost than the current spill programs.
    In 2004, it was proposed, after all listed fish impacts had been 
mitigated, to reduce spill and save $30 million. However, a federal 
judge said, ``no'', so the water was spilled at a cost of $30 million 
with no measurable benefit to listed salmon. <SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ The two strategies of spill and augmentation have caused the 
loss of 1,000 average megawatts of firm, renewable energy. (1,000 
average megawatts of energy is sufficient to provide electricity to 
more than 730,000 homes each year).
---------------------------------------------------------------------------
    Since listing began (through 2004) $5.3 billion has been expended 
for regional salmon and steelhead. Bonneville Power Administration in 
2005 will provide $700 million more for salmon and steelhead recovery 
efforts. This means that since 1978 through the current budget period, 
Bonneville's rate payers would have provided nearly $7 billion for 
salmon and steelhead. Currently, 28% of our wholesale power bill is 
made up of fish and wildlife costs. New spending of an additional $300 
million per year will soon be proposed. Even though we have 15 species 
of listed fish, we do not know what will constitute recovery, there is 
no end in sight.
    In 2004, 100 sea lions were stationed directly below the Bonneville 
Dam, feasting on returning adult salmon. In fact, sea lions appear to 
target female salmon, strip out the egg sack and leave the rest. These 
sea lions, who are protected by the Marine Mammal Protection Act, have 
even figured out how to enter the fish ladders (see photographs below 
Figure 5). Sea lions are not endangered and should not receive the same 
protective status as listed salmon--they should be dealt with 
effectively.
    Another predator of salmon and steelhead is the Caspian tern. The 
world's largest concentration of Caspian terns nest at the mouth of the 
Columbia River on a man-made island of dredging spoils. After years of 
cajoling, litigation, and $2.4 million, Caspian terns are beginning to 
nest elsewhere, lowering their consumption from 10% of migrating 
juvenile salmon to 5%. The Migratory Bird Treaty Act protects the 
Caspian tern.
    Our experience with Endangered Species Act (ESA) issues leads us to 
the following recommendations:
    <bullet>  Recovery of the species must be defined at the beginning 
of an ESA listing;
    <bullet>  Recovery actions must be modified by better information;
    <bullet>  Recovery actions must meet performance standards;
    <bullet>  The cost of recovery actions must be paid for by 
everyone, not just segments of society;
    <bullet>  Other federal laws must be integrated with the ESA;
    <bullet>  Recovery plans must consider the entire life cycle of the 
listed species;
    <bullet>  Non selective harvest of endangered or threatened species 
must not be allowed; and
    <bullet>  Recovery plans must have certainty of compliance.

    [GRAPHIC] [TIFF OMITTED] T1038.001
    
    [GRAPHIC] [TIFF OMITTED] T1038.002
    
    [GRAPHIC] [TIFF OMITTED] T1038.003
    
    [GRAPHIC] [TIFF OMITTED] T1038.004
    
    [GRAPHIC] [TIFF OMITTED] T1038.005
    
    The above graph depicts river flows at the McNary Dam, on the 
Columbia River, with low water-year conditions. Under the NMFS 
Biological Opinion, the NMFS ``target flows'' cannot be met, either 
with or without existing water withdrawals from the Greater Columbia 
River Basin region. Nor can the target flows be met under ``natural 
flow'' conditions, where river system dams and water storage reservoirs 
would be eliminated. The flows cannot be met, because the flows exceed 
the physical hydrological conditions of the river basin.
    The flow targets were developed in 1994-95 largely based on a 
tribal ``flow Proposal,'' relying on data and analyses prepared by NMFS 
in 1981, but are now no longer recognized by NOAA Fisheries as being 
applicable to current water management regimes. New data and analyses 
are significantly improved, with different water management 
implications.
    Nevertheless, tribal groups, environmentalists, and some state 
agencies refuse to acknowledge the hard science pointing toward changes 
to the ``flow Targets,'' and will force NOAA Fisheries into new 
litigation if the agency attempts to revise the Targets.
    In effect, there is no desire by key parties to adopt the best 
available science for management purposes.
Table 1:

                       The Salmon Recovery Issue:

                        A Chronological Outline

Pre-1800's       American tribes harvest 18-24 million pounds of salmon 
        and steelhead annually.
1823            First commercial harvesting of salmon by white 
        settlers.
1870's           Hatcheries are first constructed in the Columbia Basin 
        to enhance fish runs that had been severely depleted by over 
        fishing. Nearly 80 anadromous fish hatcheries have been built 
        by the federal government in the Columbia Basin.
1871            First regulations to restrict fishing are enacted.
1879            Fishwheels are first used on the Columbia to enhance 
        other traditional forms of harvesting. The wheels used the 
        river current to catch and deposit thousands of salmon in boxes 
        with a minimum of effort. Seventy-six fishwheels were in 
        operation by 1899, with some fishwheels able to catch as many 
        as 100,000 pounds of salmon each year. As fishing regulations 
        tightened, fishwheels were banned in 1926.
1883            Commercial harvest of Chinook salmon in the Columbia 
        River peaks.
1890            Chinook runs continue to decline and canneries turn to 
        smaller species of fish.
1911            Sunbeam Dam is completed, creating an almost complete 
        blockage to upstream passage of Chinook and sockeye. Attempts 
        to ladder the dam in 1919-1920 failed when the fish ladder 
        collapsed.
1914            Sockeye access to Alturas Lake is blocked by the 
        Breckinridge Irrigation Diversion.
1920            Annual fish harvest on the Columbia River is 34 million 
        pounds. Commercial harvest of Chinook continues to decline 
        steadily.
1934            Part of Sunbeam Dam is dynamited to allow fish passage, 
        although a partial barrier remains.
1937            The Bonneville Dam is dedicated by President Roosevelt 
        to provide access to reasonable power for residents throughout 
        the Northwest. Between the dam's completion in 1938 and 1970, 
        an additional 15 dams were erected on the Columbia River. 
        Currently, the Columbia and its tributaries are home to more 
        than 190 dams.
1954            Stanley Lake is poisoned and a barrier to prevent adult 
        salmon from returning is installed. Pettit Lake is poisoned and 
        a barrier installed in 1961. Yellow Belly Lake is poisoned and 
        still toxic in 1963 when a barrier is installed.
1968            The Army Corps of Engineers begins a program to collect 
        juvenile fish at several dams on the Columbia and transport 
        them down the river. During 1986, the Corps transported 13.5 
        million fish by barge and truck.
1970-1980       Commercial catch of salmon and steelhead from the 
        Columbia River declines from 12 million pounds to 1.2 million 
        pounds in 1983.
1973            Endangered Species Act is passed by Congress to protect 
        species of plants and animals which the government decides are 
        in trouble and possibly on the verge of extinction. The Act 
        requires federal agencies to develop programs to help 
        threatened or endangered species.
1974            The right of Tribal fishermen to keep half of the 
        salmon and steelhead passing the Bonneville and McNary dams in 
        the lower Columbia River, was decided February 12, 1974 by 
        Judge George Hugo Boldt in United States vs. Washington, known 
        as the Boldt Decision. (In 1979 the U.S. Supreme Court 
        overturned the Boldt Decision, but upheld the general principle 
        as well as the 50/50 salmon and steelhead allocation to 
        Tribes).
1978            The National Marine Fisheries Service (NMFS) and the 
        U.S. Fish & Wildlife Service begin a review of upper Columbia 
        River and Snake River salmon and steelhead for potential 
        listing as threatened or endangered species.
1980            96th Congress passes several key legislative measures 
        aimed at protecting the salmon resource. The most far-reaching 
        effort was the Northwest Electric Power Planning and 
        Conservation Act, more commonly known as the Northwest Power 
        Act. Through the act, the Congress created the Northwest Power 
        Planning Council composed of representatives appointed by 
        governors in Idaho, Montana, Oregon, and Washington. One of 
        their two charges is to protect, mitigate, and enhance regional 
        salmon runs.
1980-1990       BPA and Northwest utilities invest $1 billion, directly 
        and through revenues lost, to provide added water flows to 
        facilitate fish passage at dams. Among the results is an 
        increase in the number of adult salmon and steelhead returning 
        to the Columbia River: an increase that brought returns from 
        2.5 million to 2.8 million.
1981            The Northwest Power Planning Council created the 
        Columbia River Basin Fish & Wildlife program as the first step 
        toward protecting salmon runs. Their first goal was trying to 
        double the then current run from 2.5 million to 5 million.
1987            Over 155 million hatchery fish are released into the 
        Columbia Basin.
March 1990      The Shoshone-Bannock Indian Tribes of southeastern 
        Idaho file a petition with the National Marine Fisheries 
        Service to protect Snake River sockeye by listing them as an 
        endangered species.
June 1990       Oregon Trout and several environmental groups petition 
        NMFS to list wild Snake River Chinook and lower Columbia River 
        wild coho as threatened or endangered.
October 1990    The Salmon Summit is initiated by Oregon Senator Mark 
        Hatfield. Thirty Northwest representatives of state and federal 
        agencies, Indian tribes, conservation groups, irrigators, 
        fishing interests, and utilities meet to come up with a 
        comprehensive recovery plan for the petitioned salmon which 
        could be presented to NMFS for consideration.
1991           Snake River sockeye salmon listed as endangered species.
Nov. 1991       NMFS proposes three salmon stocks for listing as 
        endangered species including the Snake River sockeye, spring-
        summer Chinook, and fall Chinook.
Dec. 1991       NMFS lists sockeye salmon as an endangered species. The 
        status of the other proposed stocks are pending.
1992            Snake River fall, spring and summer run Chinook listed 
        as threatened species.
Feb. 1992        A seven member team is appointed by NMFS to develop 
        the Sockeye Salmon Recovery Plan. The team includes five 
        fisheries scientists, a hydraulic engineer, and a hydropower 
        engineer. Their target date for releasing the plan is July 
        1992.
1994            Kootenai River white sturgeon listed as endangered 
        species.
1997            Snake River Basin and Upper Columbia River steelhead 
        listed as threatened species.
1998            Lower Columbia River steelhead and Columbia Basin bull 
        trout listed as threatened species.
1999            Lower Columbia River and Upper Willamette River Chinook 
        listed as threatened species; Upper Columbia River spring run 
        Chinook listed as endangered species; Columbia River chum 
        listed as threatened species; and Upper Willamette and Mid-
        Columbia steelhead listed as threatened species.
2004            Lower Columbia River coho listed as threatened species.
Dec. 2004       The Pacific Northwest spent $7 billion in salmon 
        recovery efforts. Over the past 25 years $7 billion has been 
        spent on salmon/steel head enhancement. Annual spending has 
        reached $700 million, all paid by Bonneville Power 
        Administration customers
Jan. 2005       A determination as to when a species, such as salmon 
        and steelhead, is no longer endangered remains to be defined.
                Harvest rates of endangered species continue as 
        recovery remains undefined.
                The indiscriminate gillnetting by both Tribes and non-
        Tribes continues.
                                 ______
                                 
    Mr. Radanovich. I appreciate the testimony of all the 
witnesses. I will begin with some questioning.
    I would like to ask--before I begin, though, I do want to 
ask unanimous consent to enter into the record the testimony of 
Mr. Allen Short, General Manager of the Modesto Irrigation 
District. There being no objection, so ordered.
    [The statement of Mr. Short submitted for the record 
follows:]

          Statement submitted for the record by Allen Short, 
   General Manager, Modesto Irrigation District, Modesto, California

    Chairman Radanovich and Members of the Subcommittee, thank you for 
the opportunity to express my views with regard to the Endangered 
Species Act.
    My name is Allen Short. I am General Manager of the Modesto 
Irrigation District. The District was established in 1887 in order to 
provide irrigation water to the farmers in our portion of California's 
Central Valley. Since 1923, MID has also been providing electricity to 
its customers, and since 1940 has been the sole provider of retail 
electric service within MID's boundaries. Today, MID provides electric 
service to more than 108,000 electric service accounts. MID also 
provides 30 million gallons of treated water per day on a wholesale 
basis to the City of Modesto to meet the needs of its municipal and 
industrial customers.
    As I noted, MID is the retail electric utility for the Modesto 
area. Though our electric power supply is quite diverse, one of the 
mainstays of our portfolio is Don Pedro Dam, a hydropower facility 
first licensed by the Federal Power Commission (now the Federal Energy 
Regulatory Commission, or ``FERC'') in the 1960s. Since the completion 
of Don Pedro Dam in 1970, MID and TID--the co-licensee--have worked 
diligently to ensure that the fishery below the dam remains healthy and 
vibrant. MID has conducted numerous--and expensive--studies to ensure 
the survival of Chinook salmon in the Tuolumne River. In the early 
1990s, MID and TID filed at FERC a report summarizing the first 20 
years of those studies. That report led to a re-evaluation of the 
fishery flows and management of the River. As a result of that process, 
the District reached an agreement with the U.S. Fish and Wildlife 
Service, the California Department of Fish and Game, and numerous 
environmental groups, on a series of actions designed to enhance 
Chinook salmon populations. Those actions included additional flow 
releases, habitat restoration projects and additional monitoring and 
studies. Though each of these actions was intended to benefit salmon, 
they also had a beneficial effect on other species as well.
    MID also participated in a historic agreement that provides further 
benefits to salmon in the Tuolumne River, as well as the San Joaquin 
River and the San Francisco Bay - San Joaquin Delta Estuary (the 
``Delta''). MID is a party to the Vernalis Adaptive Management Program. 
That program, among other things, calls for additional water releases 
to be made on the Merced, Tuolumne and Stanislaus Rivers. These pulse 
flows are timed, and coordinated, in a manner that helps ``push'' out-
migrating salmon out of the tributaries to enhance their chances of 
survival as they make their way to the ocean to mature. The Vernalis 
Adaptive Management Plan also calls for various experimental flows and 
studies to determine optimal flows, and coordination with various 
pumping activities in the Delta.
    I believe that the goals of the Endangered Species Act are, for the 
most part, laudable. Often, we cannot evaluate the importance of a 
species until it has been eradicated from a particular area, or become 
entirely extinct. Thus, it is important that we take steps to ensure 
that the survival of a species is not jeopardized by our neglect.
    In addressing my comments, I wish to note that my experience with 
the ESA is focused primarily on aquatic species in the Central Valley 
of California. I know that there is a great deal of controversy 
regarding the ESA and its application to terrestrial species--insects, 
birds and mammals. Indeed, many of the criticisms of the ESA pertain to 
such species. However, I wish to focus on my experiences with the 
manner in which the ESA has been utilized with regard to anadromous 
fish species in Central California.
    One of the hallmarks of the ESA is that listing determinations be 
based on the best available science. Frequently, there is little 
scientific data available on which to base a listing. For example, in 
listing steelhead in the San Joaquin River and its tributaries, Modesto 
and Turlock Irrigation Districts submitted evidence showing that if a 
steelhead population had ever existed on the Tuolumne River, it had 
been extinct for more than 100 years before the listing was proposed. 
Nevertheless, steelhead were listed as threatened on the Tuolumne 
River.
    I am also concerned that the lack of scientific data is often 
purposeful. For many years, resource agencies and environmental groups 
have noted the occasional presence of large rainbow trout in the 
Tuolumne River. MID and TID offered to conduct genetic testing to 
determine the origins of these fish, and whether they were in fact 
anadromous (i.e., steelhead). The California Department of Fish and 
Game refused to allow the Districts to conduct the necessary scale 
sampling. Instead, CDFG conducted that sampling themselves, and have 
results of genetic analyses performed on those samples. However, 
despite repeated requests, CDFG has declined to make the results of 
their analyses available to the Districts, have not published their 
findings, and have not provided their scientific data to the National 
Marine Fisheries Service to assist the Service in its efforts to 
determine whether listing of steelhead is warranted.
    Recently, the National Marine Fisheries Service published a draft 
rule proposing to list green sturgeon as threatened in the San Joaquin 
River and its tributaries. This listing is proposed despite the fact 
that ``no green sturgeon have ever been documented in the San Joaquin 
River upstream of the Delta or in the Stanislaus, Tuolumne, and Merced 
Rivers.'' (Proposed Rule, 70 Fed.Reg. 17386, 17389 (April 6, 2005).) 
What, then, is the basis for including these areas in considering the 
listing? The presence of other species that enjoy similar habitat 
indicate that a self-sustaining population green sturgeon ``may have 
been possible.''
    These are but a few of the instances that lead me to believe that 
often the problems with the ESA are not necessarily in the Act's 
structure, but in its implementation. Listing of a species as 
threatened or endangered can have far reaching economic consequences 
for those who have, or wish to construct, projects near resources 
occupied by endangered species. While it is certainly desirable to 
ensure that species be listed when appropriate, it is not desirable to 
list species on less than scientific data; listings should be based 
only on sound scientific data that indicates that a species is both 
present, and endangered or likely to become endangered absent the 
protections of the Act.
    Likewise, with regard to designating critical habitat, such 
determinations should be made, as the Act requires, both on the basis 
of scientific data and after considering factors including the economic 
consequences of such a designation. We are particularly concerned about 
the potential impacts of listing steelhead in the Tuolumne River. As 
the data and evidence showed, there has not been a self-sustaining 
population of steelhead in the Tuolumne River for more than a century. 
Yet, if steelhead are listed, MID and TID will be expected to release 
significant quantities of water to reduce temperatures in the river 
downstream of Don Pedro Dam. Those releases will be at significant 
cost, both in terms of power generation in a state in which resources 
are expected to be stretched to capacity even in this year of abundant 
hydropower generation, but in terms of water deliveries to meet the 
needs of permanent agricultural crops, including trees and vines.
                                 ______
                                 
    Mr. Radanovich. Mr. Boyd, I am aware of the work for 
habitat restoration that you and Turlock Irrigation District 
have done on the Tuolumne River. Can you go into it? Give me an 
idea, with your experience in that, how can ESA and the 
relicensing process be improved for energy and wildlife 
purposes? Can you compare your experience with having known 
that, how the law can be improved to make it more 
environmentally friendly but also more cost effective?
    Mr. Boyd. I will certainly try. As you mentioned, much of 
the river restoration work done is being done jointly with the 
Turlock Irrigation District and the Modesto Irrigation 
District. Prior to the appearance of either district, that 
river was used for gold dredging and gravel aggregate mining 
operations and part of that restoration is repairing work that 
was done prior to--or damage that was done to the river prior 
to our existence.
    We heard earlier about the Box Canyon relicensing. Don 
Pedro will be up for relicensing in 2016 and it is our fear 
that the issues I outlined with the steelhead could become an 
issue in that relicensing process, even though at this point we 
don't believe they are an endangered species.
    The work you have been doing with the hydro relicensing 
reform language is extremely helpful in that it gives us equal 
footing with other stakeholders on the river that did not exist 
prior to that, and so we are very hopeful that the relicensing 
language that was just passed out of the House in the energy 
bill will be helpful when we come up for relicensing in 2016.
    Mr. Radanovich. Thank you, Mr. Boyd.
    Mr. Brown, you mentioned that in your little community, 
there is a long list of endangered species that you are having 
to deal with. Could you repeat those again, or do you have it 
in front of you, or can you dig them out?
    Mr. Brown. I have them right here. Dwarf-bear poppy, 
Southwestern willow flycatcher, Virgin River chub, Woundfin 
minnow, Shivwitz milk-vetch, California condor, desert 
tortoise, Siler pincushion cactus, bald eagle, and Mexican 
spotted owl.
    Mr. Radanovich. In your water agency, how many people does 
it serve, 1,400 that you mentioned in your little town, or----
    Mr. Brown. It is a power cooperative, so we serve about 
10,000 customers.
    Mr. Radanovich. About 10,000?
    Mr. Brown. Yes.
    Mr. Radanovich. Is the Kanab amber snail in your area at 
all?
    Mr. Brown. No, that is actually in our neighbor co-op area. 
They serve in that North rim of the Grand Canyon and around 
Kanab, so they deal with that, the amber snail.
    Mr. Radanovich. OK. Thank you.
    Mrs. Napolitano?
    Mrs. Napolitano. Thank you, Mr. Chairman.
    Mr. Patt, yesterday, the Committee, as you can see, issued 
a press release with, among other things, the discussion of the 
Bonneville summer spill last year, and in this press release, 
according to the BPA estimates, the spills would result in 20 
returning adults from this population yearly. The cost, as you 
can see, of $3.85 million per targeted fish. Could you comment 
on the chart?
    Mr. Patt. Yes. To come to that figure, Bonneville made some 
assumptions. One of those assumptions is that all of the water 
in the river belongs to BPA for power production. There are 
many preexisting responsibilities, including treaties that were 
signed in 1855 with Lower Columbia River tribes protecting 
their right to harvest fish on the Columbia River. Those fish 
have plummeted from approximately 25 million at treaty time, 
which is our starting point--that is the other thing.
    Determining a starting point is very important in this. We 
have seen in the past, at least in the recent past, that there 
has been some complacency seeping into the process, where we 
have hit some peaks, some fairly high peaks on the fish runs 
where people feel that these fish are recovered when we have 
been saying all along that they are nowhere close.
    But to put that amount on there--unfortunately, we had to 
deal with this last year and it is very unproductive. We were 
discussing spill options with Bonneville Power while at the 
same time trying to put out this fire, which is, again, based 
on some very faulty assumptions.
    Bonneville Power put forward some spill options last year. 
We were discussing those spill options. When they finally came 
to the table with their final proposal, it was completely 
different and it proposed spilling water in the upper basin to 
save fish, only to grind them up in lower river turbines, which 
is, at least intuitively, that is just the opposite of what you 
would do.
    So the tribes did not have their feet dug in on this whole 
proposal for spill. We discussed some spill options with BPA. 
But unfortunately, at the same time, we were fighting the 
public relations battle based on these faulty numbers.
    Mrs. Napolitano. Thank you, sir.
    Could you address or comment if you feel that the ESA 
budget is an issue, since the Fish and Wildlife Service in 2003 
indicated it would need $153 million to address current backlog 
listings and critical habitat obligations, and that would help 
determine whether or not they could be listed. Yet there is 
only $18.1 million in the budget for that. Does anybody want to 
address that?
    Mr. Smith. I will just say, I mean, that is one of the key 
issues, I think, in trying to think about how Endangered 
Species Act is applied and whether or not there are some 
credible reforms that need to be made, which I think--I know we 
can all agree there probably are, but funding is a major issue. 
For an agency like the Fish and Wildlife Service or the 
National Marine and Fisheries Service to have the money they 
need to do the research and monitoring to develop the best 
critical habitat evaluations, recovery programs, I think that 
is something that Congress would be very helpful with. You 
know, when you are working on a shoestring budget, you may not 
get the best things done you need to do.
    And so in the short time, I think we all know the 
difficulties in talking about Endangered Species Act reform. 
But in the short term, finding some money to make sure we are 
doing the best we can under the existing law could be a big 
help.
    Mrs. Napolitano. Thank you, sir.
    Mr. Eldrige, I read with great interest your statement, and 
I was listening intently to some of your key points. But what 
is the key factor responsible for BP's recent power rate 
increases? Am I correct, it is not the Endangered Species Act 
but it is Bonneville's open-ended obligation to bid the next 
provider of wholesale power to the region. GAO's report, and 
you submitted it for the record, on page 22 indicates that your 
costs rose dramatically as the agency purchased large amounts 
of power at an average price much higher than the cost of power 
from the Federal Power System. Could you comment on that, 
please?
    Mr. Eldrige. So is your question whether or not the ESA has 
caused a rate increase?
    Mrs. Napolitano. Yes.
    Mr. Eldrige. It has contributed. Like I say, right now, 
fish costs are 28 percent of our wholesale cost. The energy 
emergency on the West Coast a couple of years ago, we were 
buying energy on the market. We were short. Bonneville went 
long in a volatile market. Fish costs that year cost $1.5 
billion because of this 1,000 megawatts that were lost. So 
there are many factors. Fish and wildlife is one of them, and a 
significant one on an ongoing basis.
    Mrs. Napolitano. But not the total cost?
    Mr. Eldrige. Oh, of course not.
    Mrs. Napolitano. Thank you. Thank you, Mr. Chair. I will 
wait for the next round.
    Mr. Radanovich. Thank you, Grace.
    I have just been notified that we are going to have a 
series of votes at about 3:30, so we are going to try to do our 
best--I believe they will be the last votes of the day--to wind 
this hearing down before we have to leave. We will take it down 
to the last five minutes of voting time once the votes take 
off.
    Mr. Walden?
    Mr. Walden. Thank you very much, Mr. Chairman. Again, I 
appreciate the testimony from all of our witnesses. These are 
difficult issues and your counsel and your guidance is helpful.
    Mr. Patt, you indicated during the discussions with 
Bonneville that there was some flexibility when it comes to the 
summer spill option. Can you elaborate on that? I am sure we 
probably could agree that that is going to keep coming back as 
an issue in the region and I would be curious to know your take 
on what we should do from henceforth and the effect of summer 
spill.
    Mr. Patt. OK. I could give you a very detailed document 
that shows what was proposed. I do remember a couple of those. 
One was 24-hour spill at a slightly lesser level at John Day 
Dam, which we have never had before. Another was the use of a 
corner collector that was designed to bypass fish around the 
turbines at Bonneville Dam, but it was designed to be used in 
conjunction with approximately 50,000 CFS spill. Otherwise, 
what it did is it just attracted predators. It spilled the fish 
into a back eddy without the spill. With the spill, it washed 
them downstream.
    Mr. Walden. I see.
    Mr. Patt. Those are two of the options that we were 
considering last year. There was another one, I believe at Ice 
Harbor. I could provide that document to you.
    Mr. Walden. Yes. That would be good.
    Mr. Patt. But there are a number of options that we were 
considering last year, but----
    Mr. Walden. As I say----
    Mr. Patt.--the actual proposal came back very, very 
different and we just weren't able to propose it. Going back to 
the 2001 spill, our concern with that was that it was done 
without monitoring and evaluation in place. So it is difficult 
to track the actual impacts of that spill curtailment in 2001. 
However, the five-year-old fish that would have been a part of 
that brood year were absent from the 2004 return, so I think 
that is a very strong indicator.
    Mr. Walden. I see. Let me ask perhaps you and Mr. Eldrige 
both, what should we do about this continuing problem of 
predators, whether it is the Caspian terns on Rice Island, 
which weren't native to Rice Island. As I think Mr. Eldrige 
pointed out, it is a manmade island from dredge tailings. And 
yet they are consuming an inordinate amount of the little fish 
going down river. And then the increasing predation of the sea 
lions, given that there are Federal laws involved with both of 
these. Maybe I could start with Mr. Eldrige and then Mr. Patt. 
Maybe you can respond, as well. I am just curious. Should we do 
anything or let nature work its way? Of course, nature didn't 
have fish ladders.
    [Laughter.]
    Mr. Eldrige. I think that we should take action, and 
blowing whistles and buzzers isn't going to do it. We all know 
animal behavior. When they find an easy source of food, they 
are not going to leave.
    Virgil from Yakima Nation made a suggestion at the last 
Bonneville meeting I happened to be at that I think is a 
terrific idea, and that is that there are tribes in Alaska that 
use sea lions. Ask them to come down and harvest these sea 
lions for their own use, lower the numbers, and ultimately, we 
have got to keep them out of the fish ladder, but I think that 
we have to be forceful and not what we are doing now.
    Mr. Walden. All right. Mr. Patt, do you have a comment on 
that?
    Mr. Patt. Yes. I believe the presence of the sea lions this 
year was caused by a number of things. One was the absence of 
their normal prey, which is smelt. The smelt run didn't 
materialize this year, so they zeroed in on salmon and even 
sturgeon.
    We are working under the Marine Mammal Protection Act. The 
Columbia River Inter-Tribal Fish Commission has drafted a 
letter from its commissioners to the States of Oregon and 
Washington asking them to seek a Section 120 permit under the 
Marine Mammal Protection Act to take actions to deal with the 
problem. That includes the entire suite of options, including 
noise deterrence, hazing, and so forth. What we are very 
interested in is streamlining that process.
    The first option that was brought forth at Bonneville Dam 
were pretty much the options that didn't work at Ballard Locks 
in Washington. However, next year, since this sea lion presence 
is pretty limited in duration, usually from March up until 
about the middle of May when they leave of their own volition, 
usually, you go through those options and they are gone. I 
think it has to be ratcheted so that next year, those animals 
that are causing the problem--and teaching the behavior to 
other sea lions--can be dealt with.
    We have talked to the Corps of Engineers about devising a 
sea lion exclusion structure at the mouths of the Bonneville 
fish ladders.
    Mr. Walden. I know my time is up. To the extent to which 
you do make recommendations, any of you on these topics, if you 
could share those, at least with me and maybe other members of 
the Committee, it would be helpful as we work on these issues.
    Thank you very much, Mr. Chairman. Thank you.
    Mr. Radanovich. Thanks, Mr. Walden. I appreciate that.
    Mr. Pearce?
    Mr. Pearce. Thank you, Mr. Chairman.
    Mr. Patt, you mentioned the stock of fish on the Columbia 
at the time of the treaty was about 25 million. What do you 
reckon the population is now?
    Mr. Patt. I believe the total runs now are about 2.5 
million. In 1988, the Northwest Power Planning Council, as it 
was called then, had come up with their goal of doubling the 
run within 15 years, and that has been 17 years ago and the 
runs are still approximately the same now.
    Mr. Pearce. And I notice on one page in your testimony, you 
recommend that the dams be breached, that we tear the dams down 
in order to guarantee your rights to----
    Mr. Patt. The tribes, along with the Federal Government, 
are in a process that we would call aggressive non-breach. From 
the tribes' point of view----
    Mr. Pearce. Your testimony, Mr. Patt, says that we 
believe--``the tribes continue to believe that the four dams on 
the lower Snake must be breached to ensure the restoration of 
salmon in that basin.'' Do you stand by that comment in your 
testimony?
    Mr. Patt. At the end of the current regime that we are in 
right now. And the Federal Government is in agreement with 
that. That measure would result in a recovery of Snake River 
fall Chinook.
    Mr. Pearce. Mr. McLennan, you make several suggestions in 
your testimony about things that should be done. How workable 
are the agencies, the Interior agencies that you deal with? In 
other words, do they make agreements and stick to them, or do 
they make agreements and then change them later? What is the 
working relationship out in the field with the Interior 
Department different agencies?
    Mr. McLennan. So far, Congressman, we have good--and I will 
use the Colorado River example. While it is difficult for 
everyone in this process, we have been able, I think, to come 
together with the agencies that we work with to develop 
programs to recover the species. It is certainly not an easy 
working relationship in the whole process in that everyone has 
a different set of obligations in terms of what you are trying 
to protect as you move forward.
    But I guess from the agency side, we have found them to 
work with us with respect to trying to figure out how we get 
there. In fact, in parts of it, we found even what I would call 
the folks who were inside the room from environmental 
interests, water interests, and others helpful in moving that 
process. Part of the issue, and this is what I raised in my 
testimony, is that we have folks who are outside of this 
process, which complicates--makes the problem actually larger.
    Mr. Pearce. And when the folks outside the process come in, 
do they get the same access to change the process as you all 
who have been laboring in the process?
    Mr. McLennan. They have chosen at this point to use the 
court system to go to an outside judicial review to have 
someone else determine outside the process whether we are going 
down the right path or not.
    Mr. Pearce. Mr. Eldrige, do you have any comments on the 
same sort of questions?
    Mr. Eldrige. Well, yes. I think one of the biggest problems 
is there is no certainty of the process. I think everyone that 
wants to be involved has to be engaged, be a part of the 
solution, and once that is reached, support it. Right now, we 
run to court, and in the Northwest, we have a number of 
activists that don't have the history and we change these very 
hard worked on plans.
    Mr. Pearce. Mr. Boyd, do you find that the outside 
activists have any regard for cost in any matter of this? I 
think you testified that one of your systems, one of the 
participants in your system was tagged with a fairly large 
cost. Do you find that these large costs--or Mr. Brown, I am 
sorry--do you find that there is any concern for costs as we 
discuss recommendations?
    Mr. Brown. I guess in my experience, and, of course, I 
don't sit out there on the day to day battles, being a director 
and having another job, but taking this process of getting the 
line through the turtle preserve where there was already an 
existing 138 line, we started that process and we really had a 
need to have the power within a year. We were experiencing a 
lot of growth. We had a 69-KV line. We needed to upgrade to 
138. So we started the process.
    You have a local committee that you meet with on the 
habitat that you have to go through besides the BLM and those 
people. That process, we thought would take a year. It took us 
two years to get through and they made us look at options of 
trying to go around, through residential areas and other 
places, as opposed to just going across the corridor.
    So I guess my answer would be, yes, I do see some outside 
costs that come when outside groups are put in. We have the 
same problem with the Forest Service, too. Sometimes they are--
it is not like they won't deal with us, but they are very slow 
and very unresponsive when we ask them to do something. It 
takes a long time to get things done.
    Mr. Pearce. Thank you all for your participation. Mr. 
Chairman, thank you.
    Mr. Radanovich. Thank you, Mr. Pearce.
    Mr. Gohmert?
    Mr. Gohmert. Thank you, Mr. Chairman.
    Mr. McLennan, you had mentioned that you had been actively 
working for alternatives and you touched on some very quickly. 
Can you be a little more specific about the alternatives that 
you feel would be helpful in protecting the endangered species 
but doing so in a reasonable way?
    Mr. McLennan. Congressman, let me lay out--I referenced 
them in my written testimony and I will just walk through them 
quickly in the interest of time.
    One of the things we clearly need to be able to do is we 
need to be able to expand and encourage voluntary conservation 
efforts in a way that what we want to end up with at the end of 
the day, particularly for local landowners and any number of 
others who are local businesses or impacted, we want to get to 
a position where they are encouraged, incentivized, and 
actually want to participate in the recovery of species. I 
would argue today we have a program which forces what I will 
call the three S's, and you guys have heard it in this 
Committee before--shoot, shovel, and shut up--versus an Act 
that actually encourages finding ways so that people will want 
to recover the species.
    So one is we have to find measures that actually encourage 
voluntary conservation methods----
    Mr. Gohmert. OK, I guess that is my question. You say we 
have got to find ways, and that was my question to you rather 
than your question to me. What are those ways?
    Mr. McLennan. Incentivize both locally and at the 
individual members' level, incentivize them in some fashion, 
whether you use a tax credit methodology, whether you use--one 
of the things you need to guarantee to them, that there are no 
surprises to them if they, in fact, encourage or participate in 
a program.
    One is move some of the decisionmaking, if you will, to the 
State and locale so that those people who are closest to the 
ground can actually participate in this development rather than 
having everything come from Washington.
    Establish recovery goals. I think Mr. Eldrige referred to 
it in the Bonneville situation. We have been fortunate in some 
areas that we actually have some programs that have recovery 
goals. Those are huge issues toward going to get to the point 
where someone will actually participate.
    If you were to give me the choice to say, I know at the end 
of the day that I need five fish per mile and that is recovery 
and that I can do certain activities associated with that, 
create hatcheries and do a number of other things that allow 
you to be able to get to your end goal, you will find that 
people participate, versus what we do today, which is go to 
them and tell them that we have a problem. You are going to 
spend lots of money and you don't know where the end game is. 
No one wants to participate in that process because there is no 
end to that process.
    There are a number of other things, as well----
    Mr. Gohmert. About incentives you talk about, I guess you 
are saying provide tax incentives for saving or protecting 
species rather than just ordering it?
    Mr. McLennan. Find ways to use tax incentives, use other 
methods, if you will, and Congress certainly looks at those in 
terms of any number of ways that we can incentivize people----
    Mr. Gohmert. So we should give sea lions some tax incentive 
to go get food stamps and redeem them for free fish somewhere. 
I mean, I am looking for hard and fast ways that we can make 
this more efficient without being the typical slow-moving, 
stupid government. We are looking for effective ways, and I 
would be interested in the written testimony of anyone, written 
proposals, things we can do to use more common sense.
    I read somewhere that a spotted owl pair had been found 
mating in a K-mart sign. Should we put K-mart signs on the 
Endangered Species List because of the K-mart financial 
problems?
    [Laughter.]
    Mr. Gohmert. I mean, I am looking for hard solutions to 
these tough questions. We want to protect the environment, have 
species around for years to come, but not be ridiculous as a 
government, charging where 28 percent of the cost, as I 
understood you to say, Mr. Eldrige, is for saving the fish that 
we may not be saving. So anyway----
    Mrs. Napolitano. Would the gentleman yield?
    Mr. Gohmert. Let me just ask, any written proposals that 
you can submit to us, anybody in the audience, any written 
proposals, hard things we can do. Please don't say, you guys 
find a good way. We are asking you for solutions. That is why 
you are here. Thank you very much. I yield back my time.
    Mrs. Napolitano. Thank you for yielding. I am going to 
dovetail into your statement, and that is creating tax 
incentives. That is the jurisdiction of the Ways and Means 
Committee, so maybe they might be interested in taking some of 
that, a look at it.
    But I wanted to ask Mr. McLennan, on page 4, you state the 
Act does not allow a Secretary to consider voluntary programs, 
something we were just talking about. Yet there are States like 
Georgia, South Carolina, Texas, and Louisiana already have 
active State-administered programs to protect some of the 
endangered species. Are you aware of those?
    Mr. McLennan. Right now, Congresswoman Napolitano, you are 
right. There are places where people have taken the initiative. 
There is considerable uncertainty with respect to whether or 
not it is going to make a difference, i.e., whether or not you 
are going to get in the middle of a program and it is going to 
be deemed to be, by some judge, not to be available.
    So those folks--and we have several programs, as an 
example, in Colorado where the State has and others are looking 
at and we have local working groups looking at specifically how 
do you take some of those responsibilities. But I will argue to 
you today, they are doing that at risk.
    Mrs. Napolitano. Well, there is nothing in law that 
prohibits the States from doing it right now, at this point.
    Mr. McLennan. I will look into specifically what you are 
asking about, nothing in law. But at this point, it has always 
been a Federal obligation to determine how you deal with 
endangered species because of the impacts.
    Mrs. Napolitano. OK, but that is not the question. It is 
the States right now have the ability to do something on their 
own.
    Mr. McLennan. They have the ability to do things on their 
own, but it is at risk that it will be an unsuccessful program.
    Mrs. Napolitano. That is your opinion, sir. Thank you very 
much.
    Thank you, Mr. Chairman.
    Mr. Radanovich. All right. I want to thank the witnesses 
for your valuable testimony and the members here for their 
questions.
    Members of the Subcommittee may have some additional 
questions, and if so, we would ask that you promptly respond to 
these questions in writing. The hearing record will be held 
open for ten days for these responses.
    If there is no further business before the Subcommittee, I 
again thank the members of the Subcommittee and our witnesses 
and the Subcommittee stands adjourned. Thank you very much for 
your participation.
    [Whereupon, at 3:45 p.m., the Subcommittee was adjourned.]

    A statement submitted for the record by The Honorable 
Barbara Cubin follows:]

Statement of The Honorable Barbara Cubin, a Representative in Congress 
                       from the State of Wyoming

    Mr. Chairman:
    Those of us blessed enough to live in the American West are bound 
together by such things as our love for the outdoors and the 
recreational opportunities we enjoy. Unfortunately, another tie that 
often binds us is the unfair application of federal laws like the 
Endangered Species Act (ESA).
    Too many citizens are shut out of their public and private lands 
because of unfair applications of the ESA without even having the 
opportunity to provide local input. It seems more taxpayer dollars end 
up being spent litigating these issues in courts instead of helping 
species actually recover. This is simply wrong. ESA designations should 
be based on field-tested and peer-reviewed science, common-sense input 
from landowners, and take into account local economic data.
    The regulatory and cost burden this broken law places on our 
nation's rural power providers is equally as problematic, as the cost 
of compliance is inevitably passed on to local power customers. From 
the citing of new transmission to the everyday operation of our 
hydropower facilities, ESA regulations are a constant looming obstacle 
to energy efficiency.
    We would not likely be holding this hearing today if there was any 
proof that the ESA was a successful tool in species recovery. However, 
when less than one percent of the total number of species listed as 
threatened or endangered have ever been recovered or de-listed, the ESA 
as currently written has proven nothing more clearly than its own need 
for responsible, common-sense reform.
    I look forward to hearing testimony from our panel today regarding 
those aspects of the ESA that affect their ability to provide 
efficient, affordable energy to their consumers. I am also interested 
in what reform measures to the Act would help them accomplish this goal 
more effectively. It is this kind of ``on-the-ground'' input that will 
be essential in this Committee's efforts toward making the ESA a 
workable law for our nation.
    Thank you Mr. Chairman for holding this important hearing and I 
yield back the balance of my time.
                                 ______
                                 
    The information submitted for the record listed below has 
been retained in the Committee's official files:
    <bullet>  U.S. Army Corps of Engineers report entitled 
``Energy Impacts of re-operating the Missouri River Dams,'' by 
David Marcus, Energy Economist, Berkeley, California, dated 
June 2002;
    <bullet>  Patt, Olney, Jr., Letter dated April 28, 2005, to 
Dr. Jeffery P. Koenings, Director, Washington Department of 
Fish and Wildlife, Olympia, Washington, and Lindsay A. Ball, 
Director, Oregon Department of Fish and Wildlife, Salem, 
Oregon, and news articles entitled ``Tribes ask Oregon and 
Washington for Action on Sea Lion Problem,'' ``Tribes ask 
permission to kill sea lions eating salmon at Bonneville Dam'' 
and ``Tribes press states to ask for power to kill sea lions'' 
submitted for the record; and
    <bullet>  The Yakama Nation Comments on Bonneville Power 
Administration's Power Function Review, dated April 28, 2005.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
